 Treasury Inspector General for Tax Administration




Semiannual Report to the Congress
              October 1, 2000 through March 31, 2001
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
       for TAX
   ADMINISTRATION

                                                April 30, 2001



       The Honorable Paul H. O'Neill
       Secretary of the Treasury
       Washington, D.C. 20220

       Dear Mr. Secretary:

       I am forwarding to you the Treasury Inspector General for Tax Administration's (TIGTA)
       Semiannual Report to the Congress for the six-month period ending March 31, 2001. We
       issued 60 audit reports that identified over $410 million in financial accomplishments. Most of
       the financial accomplishments involved issues that would increase tax assessments and
       collections, or protect revenue from erroneous claims or refunds.

       TIGTA closed over 2,250 investigations and investigative recoveries totaled just over $8.3
       million during this reporting period. The Office of Investigations has focused on the emerging
       problem of domestic terrorism, as well as threats and assaults against Internal Revenue Service
       (IRS) employees as they carry out their tax administration responsibilities.

       The Office of Audit dedicates resources to helping the IRS address its major challenges, i.e.,
       technology modernization, customer service, filing season, and tax compliance, to include the
       challenges presented by a global economy. The annual audit requirements involving taxpayer
       rights imposed by the IRS Restructuring and Reform Act of 1998 are underway and will be
       reported in our next semiannual report.

       TIGTA special agents conducted integrity awareness presentations for over 15,500 individuals,
       of which 89 percent were IRS employees. Our goal is to reach one third of IRS employees with
       our integrity briefings by the end of the fiscal year. We believe these presentations heighten
       integrity awareness and have a potential deterrent effect on fraud and misconduct.

       I look forward to working with you in helping the IRS become a highly effective and respected
       government agency for the American public.

                                                    Sincerely,


                                                    David C. Williams
                                                    Inspector General

       Enclosure
                                        Semiannual Report to the Congress



                                                   Table of Contents
Office of the Inspector General for Tax Administration ............................................... 1


Authorities ......................................................................................................................... 1


Major Issues Facing the IRS............................................................................................ 1


Office of Audit.................................................................................................................... 9


Office of Investigations .................................................................................................. 29


Appendix I
  Statistical Reports for the Office of Audit...................................................................... 43

        Questioned Costs, Funds Put to Better Use, Additional Quantifiable Impact on Tax

        Administration


Appendix II
  Statistical Reports for the Office of Investigations........................................................ 47

         Investigative Results, Complaints/Allegations Received by TIGTA, Status of
         Complaints/Allegations Received by TIGTA, Complaints/Allegations Received by the IRS,
         Disposition of Complaints/Allegations Received by the IRS

Appendix III

  Statistical Reports—Other ........................................................................................... 53

         Audit Reports With Significant Unimplemented Corrective Actions, Access to Information,

         Audit Reports Issued in Prior Reporting Period With No Management Response,

         Revised Management Decisions, Disputed Audit Recommendations,

         Review of Legislation and Regulations


Appendix IV

  TIGTA Audit Report Listing .......................................................................................... 69


Appendix V

  Section 1203 Standards............................................................................................... 75


Appendix VI

  Statutory TIGTA Reporting Requirements .................................................................. 77


Appendix VII

  Government Performance and Results Act Audits ..................................................... 81


Appendix VIII

  Acronyms ..................................................................................................................... 83


Appendix IX

  Organization Chart ....................................................................................................... 85





                            Treasury Inspector General for Tax Administration
                                             March 31, 2001
                             Semiannual Report to the Congress




                       Office of Treasury Inspector General
                              for Tax Administration

INFORMATION ABOUT THE                            The Offices of Audit and Investigations carry
TREASURY INSPECTOR GENERAL                       out these duties and are supported in their
FOR TAX ADMINISTRATION                           efforts by the Offices of Chief Counsel,
                                                 Information Technology, and Management
The Office of the Treasury Inspector General     Services.
for Tax Administration (TIGTA) provides
independent oversight of the Internal Revenue
Service (IRS) activities, the IRS Oversight      AUTHORITIES
Board, and the IRS Office of Chief Counsel.
                                                 TIGTA has all the authorities granted under
TIGTA is organizationally placed within the
                                                 the Inspector General Act of 19781 . TIGTA
Department of the Treasury, but is
                                                 also has access to tax information in the
independent of the Department and all other
                                                 performance of its responsibilities and the
Treasury offices. TIGTA’s focus is devoted
                                                 authority to report criminal violations directly
to all aspects of work related to tax
                                                 to the Department of Justice. The Inspector
administration.
                                                 General (IG) and the Commissioner of
TIGTA’s audit and investigative activities are   Internal Revenue have established policies
designed to:                                     and procedures delineating responsibilities to
                                                 investigate offenses under the internal
•	 Promote economy, efficiency, and              revenue laws.
   effectiveness in the administration of the
   nation’s tax system.                          In addition, the IRS Restructuring and Reform
                                                 Act of 19982 (RRA 98) amended the Inspector
•	 Detect and deter fraud and abuse in IRS       General Act of 1978 to give TIGTA statutory
   programs and operations.                      authority to carry firearms and execute the
•	 Protect the IRS against external attempts     provisions of the Internal Revenue Code
   to corrupt or threaten its employees.         (I.R.C.) Section 7608(b)(2). These provisions
                                                 include law enforcement authority to execute
Other responsibilities include:                  and serve search warrants, serve subpoenas,
•	 Investigating allegations of misconduct       and make arrests.
   by IRS employees.
•	 Reviewing and making recommendations          MAJOR ISSUES FACING THE IRS
   regarding existing and proposed
   legislation and regulations relating to the   As the nation’s tax administrator, the IRS
   programs and operations of the IRS and        collects 95 percent of federal tax revenues.
   TIGTA.                                        For Fiscal Year (FY) 2001, the IRS is
                                                 projected to collect $2.1 trillion. The IRS
•	 Recommending actions to resolve fraud,        processes approximately 233 million tax
   abuses, and deficiencies in IRS programs
                                                 returns and provides assistance to more than
   and operations.
                                                 128 million taxpayers annually. The IRS also
•	 Informing the Secretary of the Treasury
                                                 1
   and the Congress of problems and the            Pub. L. No. 95-452 Stat. 1101, as amended, at 5

   progress made in resolving them.              U.S.C. app. 3 (1994 & Supp. II 1996)

                                                 2
                                                   Pub. L. No. 105-206, 112 Stat. 685


                    Treasury Inspector General for Tax Administration
                                     March 31, 2001
                                 Semiannual Report to the Congress



implements tax law changes and manages                9 through 27, 29 through 42, and in
over 700 office locations. This formidable            Appendix VI, respectively.
task is carried out in an environment where
providing quality customer service and
enforcing tax laws go hand in hand.                   MODERNIZING THE IRS
In December 2000, TIGTA advised Congress              Creating a modernized IRS is a top priority of
of the following major challenges facing the          the Commissioner, as well as a principal focus
IRS in FY 2001:                                       of Congressional oversight. Modernization is
                                                      the most significant challenge the IRS faces
•     Modernizing the IRS:                            over the next few years. Modernization
      ¾ Organizational Restructuring                  includes both organizational restructuring and
                                                      implementation of new computer systems and
      ¾ Technology Modernization
                                                      technology. The ability to achieve the IRS’
•	 Providing Security Over Information                modernization concept is largely dependent
   Systems                                            on restructuring to better meet taxpayer needs
                                                      and developing new technology to replace
•	 Processing Returns and Implementing                deficient and obsolete systems.
   Tax Law Changes
•	 Providing Customer Service and Ensuring            Organizational Restructuring
   Tax Compliance                                     On October 1, 2000, the IRS achieved its first
•	 Providing Quality Customer Service                 milestone toward modernization by
   Operations                                         implementing its new organizational
                                                      structure. The four major components of the
•	 Protecting Revenue and Minimizing Tax              new IRS are the Wage and Investment
   Filing Fraud                                       Income (W&I), Small Business/
•     Protecting Taxpayer Rights                      Self-Employed (SB/SE), Large and Mid-Size
                                                      Business (LMSB), and Tax Exempt and
•	 Implementing the Government                        Government Entities (TE/GE) Divisions.
   Performance and Results Act of 1993
   (GPRA)3                                            The stand up of the new business unit
                                                      structure was an important first step in the
•     Managing Finances                               IRS’ restructuring, though far from the last of
                                                      this long-term endeavor.
•	 Addressing the Impact of the Global
   Economy on Tax Administration                      TIGTA audits found that the four new
These major challenges have been the focus            business units had substantially completed the
of TIGTA’s audit and investigative activities         critical elements needed for standing up.
during this six-month reporting period. The           Specifically, most key management positions
following sections provide a summary of the           were filled, most employees had been
issues and TIGTA’s activities to help the IRS         realigned, finance offices and budgets were
                                                      established, many delegations of authority
address these issues. Details of some of the
                                                      were revised, and detailed plans of
more significant audit and investigative
activities, as well as information on statutory       workarounds 4 were developed. However,
requirements, can be found on pages
                                                      4
                                                       A “workaround” is a temporary solution to a
                                                      problem that allows a new organization to be
                                                      operational until a final solution can be developed
3
    Pub. L. No. 103-62, 107 Stat. 285                 and implemented.

                        Treasury Inspector General for Tax Administration
                                         March 31, 2001

                                                  2
                              Semiannual Report to the Congress



additional actions were needed in the area of          •	 Business needs not always being well
staffing unfilled positions in the W&I                    defined.
Division and minimizing the risks of
                                                       In addition, the Office of Audit recently
implementing the TE/GE Division’s
                                                       reported that while the IRS has established a
modernization vision.
                                                       framework for meeting its electronic filing
With the new business structure in place, the          goals, it is questionable whether these goals
IRS must focus on important issues such as             can be met. The ability to achieve 80 percent
taxpayer access to “walk-in” and “toll-free”           electronically filed returns by 2007 will
services; defining new customer bases and              require aggressive and sustained efforts. For
determining customer needs; accuracy of                example, 23 percent of all individual returns
responses to taxpayers; the ability to hire and        were filed electronically in FY 1999. While
train a qualified workforce; and, reversing the        the percentage of individual returns filed
decline in enforcement results.                        electronically increased five percent in
                                                       FY 2000, even more substantial increases are
Technology Modernization                               needed to achieve the goal of 80 percent by
Almost $400 million has been spent on                  2007.
technology modernization in the past two
years. While significant progress has been             PROVIDING SECURITY OVER
made, including development of the                     INFORMATION SYSTEMS
modernization blueprint and establishment of
program management processes, most of the              The IRS maintains large volumes of sensitive
ongoing systems modernization projects have            taxpayer information. The Commissioner has
taken longer and cost more than originally             stated that protecting this information and the
planned. This is attributed, in part, to the IRS       systems used to deliver taxpayer services is
learning to manage its complex systems                 key to a customer-focused IRS.
modernization effort, and the roles and
responsibilities of the IRS and the PRIME              As the primary revenue collector for the
contractor being inadequately defined during           United States (U.S.), the IRS is a potential
the early phases of the modernization.                 target of external terrorists and hackers.
                                                       Additionally, disgruntled employees pose a
While growing pains are not uncommon for               threat, particularly during the IRS
major systems development projects, the                reorganization process. Whether external or
reality is that a restructured IRS may take            internal threats, the IRS is increasingly more
longer to realize than initially anticipated.          vulnerable as its systems become more
Assessing the IRS’ modernization efforts               interconnected.
continues to be a top priority for TIGTA.              Recent TIGTA audits have identified
TIGTA has identified the following areas that          significant security weaknesses in the
could seriously impact the success of                  following areas:
technology modernization:
                                                       •   Intrusion detection.
•	 Delays and cost overruns in delivering
   tangible benefits to taxpayers.                     •   Disaster recovery.

•   Potential funding problems.                        •   Physical security of facilities and systems.

•	 Inconsistencies in implementing key                 •	 Certification of security controls for
   systems development processes.                         sensitive systems.



                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                   3
                               Semiannual Report to the Congress



TIGTA is working closely with the IRS to                filing requirements and the accuracy and
develop a group of dedicated computer                   utility of information received and processed.
specialists and special agents who can rapidly
                                                        The Office of Audit reported the IRS needs
respond to computer intrusions, investigate
                                                        procedural and organizational changes to
IRS network problems when indicators of
                                                        further simplify tax forms, and thereby reduce
intentional disruption are present, and conduct
                                                        taxpayer burden. For example, the IRS does
recurring systems penetration tests to detect
                                                        not have a toll-free telephone number for
new vulnerabilities.
                                                        taxpayers to conveniently provide comments
Unauthorized accesses (UNAX) to taxpayer                on improving tax forms. In addition, the IRS
information by IRS employees remain a                   needs to ensure the tax form development
concern. The IRS conducts annual awareness              process complies with federal internal control
programs to reinforce its policy of “zero               standards.
tolerance” for unauthorized access of taxpayer
records. All employees are required to
acknowledge in writing that they attended and           PROVIDING CUSTOMER SERVICE
understood these presentations, yet abuses              AND ENSURING TAX COMPLIANCE
continue.
                                                        The IRS has begun to re-engineer its business
The Office of Investigations uses detection             processes and technology to focus on
criteria to search the IRS’ tax files to identify       providing vastly improved service to
potential unauthorized accesses. During this            taxpayers. The belief is that voluntary
reporting period, 358 potential leads were              compliance with the tax laws will increase if
identified and 163 were referred to field               the IRS provides the right mix of education
offices for investigation. In addition, the             and support to taxpayers. The task is a
Office of Audit has recommended improved                daunting one.
computer controls to better protect
confidential taxpayer information from                  Revenue receipts processed by the IRS
unauthorized accesses.                                  increased from $1.5 trillion in FY 1996 to
                                                        $1.9 trillion in FY 2000. However, revenue
                                                        collected as a result of compliance activity
PROCESSING RETURNS AND                                  decreased by $5 billion and gross accounts
IMPLEMENTING TAX LAW                                    receivable increased by $41 billion during the
CHANGES                                                 same period. IRS management and
                                                        stakeholders have concerns about the reduced
The filing season impacts every American                resources allocated to compliance activities
taxpayer and is, therefore, always a highly             and the related decrease in business results.
critical program for the IRS. Programs,                 In February 2001, Congress approved
activities, and resources have to be planned            approximately $140 million for IRS to hire
and managed effectively each filing season.             over 2,800 employees to improve both
For example, more than 250 computer                     customer service and compliance coverage.
programming changes were required for the               Decreased enforcement has also been
2000 filing season. This is further                     attributed to IRS employees’ concerns over
complicated by the modernization efforts that           the mandatory employment termination
are updating and replacing the very core tax            provision in Section 1203 of RRA 98. To
processing systems needed to deliver a                  help address these concerns, TIGTA has
successful filing season. In addition, the IRS          briefed the IRS staff on Section 1203
must ensure telecommunications and system               investigations. In addition, TIGTA
capacity will accommodate the new electronic

                      Treasury Inspector General for Tax Administration
                                       March 31, 2001

                                                    4
                              Semiannual Report to the Congress



participates in an IRS task force focusing on          The accuracy of responses at call sites and
Section 1203 processes.                                Taxpayer Assistance Centers needs to be
                                                       increased. Improvements are heavily
                                                       dependent on the success of the IRS’ systems
PROVIDING QUALITY CUSTOMER                             modernization initiative. The Customer
SERVICE OPERATIONS                                     Communications Project is to be the IRS’ first
                                                       major modernization effort. This Project is
Providing top quality service to every
                                                       designed to route taxpayer calls to a customer
taxpayer in every transaction is integral to the
                                                       service representative, anywhere in the U.S.,
IRS’ modernization plans. There are many               who is best qualified to answer the question.
ways in which the IRS provides customer                It will also provide expanded self-service
service; the most direct include toll-free             telephone and Internet services.
telephone service, electronic customer
service, written communications to taxpayers,
walk-in service, and accurate and timely tax           PROTECTING REVENUE AND
refunds. Each of these services affects a              MINIMIZING TAX FILING FRAUD
taxpayer’s ability and desire to voluntarily
comply with the tax laws.                              The IRS must continually seek opportunities
                                                       to protect revenue and minimize tax filing
Telephone and Internet technology afford the
                                                       fraud in its programs and operations. The
IRS many opportunities to dramatically
                                                       Earned Income Credit (EIC) Program
improve customer service. The IRS has made
                                                       continues to be a highly visible area of
strides in using these technologies. However,
                                                       potential fraud. An August 2000 IRS EIC
inadequate systems design and planning has
                                                       compliance study reported that the amount of
hindered some of these efforts, and put them
                                                       overclaims submitted was approximately
at risk of not being completed timely.
                                                       $9.3 billion, or 31 percent of the amount
For example, planning for an Internet-based            claimed.
refund status application began in 1996. This
                                                       To combat potential EIC fraud, the IRS
application is currently scheduled to be
                                                       launched promising new compliance
available by the 2002 filing season. While
                                                       initiatives. For example, partnerships with the
general planning and analysis work has been
                                                       Department of Health and Human Services
accomplished, detailed design and
                                                       and the Social Security Administration will
development are still needed. To be postured
                                                       permit the IRS to cross-check information
for the 2002 filing season, the IRS must
                                                       regarding how the child is related to the
define and complete critical design
                                                       taxpayer, the age of the child, and whether the
requirements and development work, to
                                                       taxpayer is the child’s custodial parent. For
include: analyzing and defining the business
                                                       the 2000 filing season, the IRS began
and functional requirements of the refund
                                                       checking all secondary Social Security
application; ensuring the application meets
                                                       Numbers (S-SSNs) in addition to primary and
security and privacy requirements; and,
                                                       qualifying child SSNs on EIC returns. The
integrating/interfacing the web application
                                                       IRS rejects returns if the names and numbers
with the appropriate computer systems.
                                                       do not match Social Security records.
In addition, the IRS has developed a web site
                                                       Despite the IRS programs and efforts to detect
that provides taxpayers with convenient
                                                       and stop fraudulent EIC claims, relatively
access to tax forms and information. This
                                                       little effort has been made to systemically
filing season alone, the web site received over
                                                       identify refund schemes involving business
one billion accesses.
                                                       returns and associated credits. A few business

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                   5
                                  Semiannual Report to the Congress



schemes have been identified but generally, it        The IRS should continue to monitor
has required labor-intensive manual                   compliance with these taxpayer rights
procedures. The IRS is concerned that                 provisions, particularly since enforcement
fraudulent refund claims may be expanding to          activities are likely to increase. The IRS has
include business returns and that scheme              restructured and placed increased emphasis on
perpetrators continue to develop new methods          the importance of appropriate enforcement
to defraud the system.                                action to ensure compliance with tax laws.
                                                      The Office of Investigations protects
PROTECTING TAXPAYER RIGHTS                            taxpayers and their rights by investigating
                                                      allegations of misconduct by IRS employees.
The IRS has made progress in implementing             Since the passage of RRA 98, over 1,150
some RRA 98 taxpayer rights provisions. For           complaints alleging Section 1203 violations
example, the IRS was fully or substantially           have been received by TIGTA. TIGTA is
compliant with the provisions involving               noticing a decline in the number of
seizures and notification requirements for            complaints it receives. From a high of 95
levies. The IRS is continuing to take                 allegations in October 1999, TIGTA has
corrective actions to increase compliance with        received 55 or fewer allegations per month
the following RRA 98 provisions:                      since January 2000. TIGTA received only 19
                                                      allegations of Section 1203 violations in
•     Providing innocent spouse relief.
                                                      March 2001.
•	 Notifying taxpayers of third party                 The vast majority of these Section 1203
   contacts and summonses.                            complaints have alleged an IRS employee
•	 Not designating taxpayers as illegal tax           violated a provision of the IRS Manual or
   protesters.                                        I.R.C. to retaliate against or harass someone.
                                                      The second largest category concerns
•	 Providing proper and timely notice that a          constitutional and civil rights/Equal
   federal tax lien has been filed.                   Employment Opportunity violations.
•	 Not withholding information in response            During this reporting period, TIGTA initiated
   to taxpayers’ written requests for                 108 investigations, of which 40 were closed.
   information under the Freedom of
   Information Act of 1998 5 (FOIA) or the
   Privacy Act of 1974 6 .                            IMPLEMENTING GPRA
RRA 98 also placed restrictions on the IRS’           GPRA requires government agencies to set
use of enforcement statistics to evaluate             goals, measure performance, and report on
employees or suggest production quotas and            accomplishments. During the past two years,
goals. In September 2000, TIGTA reported              the IRS developed its Strategic Plan and
that most employee evaluations and                    provided budget justifications that included
management documents did not contain tax              Annual Performance Plans. Collectively,
enforcement results and did not impose                these documents satisfy major GPRA
production quotas or goals; however, there            requirements by identifying the IRS’ mission,
were some instances in which these types of           strategic objectives, goals, and strategies. The
enforcement statistics were used.                     documents also describe the IRS’ priorities
                                                      for a six-year period and the key performance
                                                      measures used in assessing achievement of its
5
    U.S.C. § 552 (1996)                               goals.
6
    U.S.C. § 552a (1996)

                           Treasury Inspector General for Tax Administration
                                            March 31, 2001

                                                  6
                              Semiannual Report to the Congress



The Commissioner has indicated that it will           ADDRESSING THE IMPACT OF THE
take years to develop a complete set of               GLOBAL ECONOMY ON TAX
balanced measures that can be used at all             ADMINISTRATION
levels of the IRS. As the new operating
divisions concentrate on implementing its             TIGTA and the GAO have previously
new organizational structures, performance            reported serious internal control and systemic
measures may not receive high priority.               weaknesses in IRS’ administration of
TIGTA believes the IRS can improve its                international programs. A recent TIGTA
measures, the quality of the performance data,        audit concluded that the IRS is in no better
and reporting of annual accomplishments.              position today to determine taxpayers’
                                                      compliance levels in reporting foreign
MANAGING FINANCES                                     sourced income than it was in 1997. Despite
                                                      the foreign sourced income information
The IRS received an unqualified or clean              provided by tax treaty partners, IRS is unable
opinion on its FY 2000 financial statements.          to measure compliance or identify
However, the General Accounting Office                non-compliance effectively. While the IRS
(GAO) reported internal controls are not              has indicated that it has undertaken several
effective, and financial management systems           international compliance programs, increased
lack substantial compliance with the Federal          focus on nonfiling, transfers of assets by U.S.
Financial Management Improvement Act7 .               citizens to foreign trusts, foreign tax credit
                                                      claims, and foreign sourced income is needed.
Obtaining the unqualified opinion required
compensating processes to work around IRS’            TIGTA is in the process of reviewing three
systems and control weaknesses to derive              areas of foreign-related transactions. These
year-end balances. IRS’ approach relied               areas include withholding on partnerships by
heavily on costly, time-consuming processes;          foreign partners; compliance programs for
statistical projections; external contractors;        U.S. residents with foreign sourced income;
substantial adjustments; and, extensive human         and, compliance programs for non-resident
effort. The level of effort behind these              aliens.
processes cannot be sustained to produce
timely financial information for decision
making on a regular basis.




7
 Pub. L. No. 104-208, 110 Stat. 3008-314, 3009-
389 (1996)

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  7
                              Semiannual Report to the Congress



            Treasury Inspector General for Tax Administration
                             Office of Audit

INTRODUCTION                                          SIGNIFICANT AUDIT RESULTS
The Office of Audit identifies opportunities to       During this reporting period, the Office of
improve administration of the nation’s tax            Audit issued 60 audit reports, which are listed
laws by conducting comprehensive,                     in Appendix IV.
independent performance and financial audits
                                                      The results of the most significant reviews are
of IRS programs and operations to:
                                                      discussed in the following sections.
•	 Assess efficiency, economy,
   effectiveness, and program
   accomplishments.
                                                                Modernizing the IRS

•	 Ensure compliance with applicable laws             Additional Management Actions Are

   and regulations.                                   Needed to Ensure the Timely and

                                                      Successful Modernization of the Tax

•	 Prevent, detect, and deter fraud, waste,           Exempt and Government Entities

   and abuse.                                         Division

                                                      (Reference No. 2001-10-026)

THE AUDIT PROGRAM                                     The mission of the new TE/GE Division is to
                                                      focus on providing customers top quality
To assist the IRS in meeting the challenges it        service and protecting the public interest by
faces in FY 2001, the Office of Audit                 applying the tax laws with integrity and
developed a comprehensive audit program.              fairness to all. The IRS has taken positive
The program helps the IRS assure that tax             steps toward ensuring the successful
administration programs are efficient and             migration to the new TE/GE Division.
effective, and minimize fraud, waste, and             Nonetheless, additional actions are needed to
abuse.                                                minimize the inherent risks associated with
The audit program is presented in the Annual          such a major endeavor. Timely addressing
Audit Plan, which communicates audit                  these risks is critical to ensure the successful
priorities for the current fiscal year. Many of       implementation of the TE/GE Division’s
the activities described in the Audit Plan            modernization initiatives.
address the fundamental goals related to              The Office of Audit determined that the
administering programs effectively and                TE/GE Division has not incorporated the
efficiently. Major management issues, as well         concept of a single executive or senior-level
as specific areas of concern to the Congress          person with end-to-end accountability into its
and the IRS Commissioner, are also                    implementation governance structure to
addressed. As such, audit work is organized           manage its modernization initiatives. Also,
around the IRS’ core business activities with         additional actions should be taken to better
emphasis on the statutory coverage imposed            control, evaluate, and report internal and
by RRA 98. Audit work also focuses on other           external stakeholder concerns and comments.
statutory authorities and standards involving         TE/GE Division management would then be
computer systems and financial management.            in a better position to readily identify and
                                                      resolve critical issues facing transition from
                                                      the old to the new organization.


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  9
                              Semiannual Report to the Congress



The TE/GE Division does not have an                    the IRS to exchange tax information. The
effective process to identify and monitor the          purpose of the Prototype is to provide
status of workarounds. The inability to                information (such as lessons learned) to the
adequately capture and monitor workarounds             related Business Systems Modernization
may prevent the TE/GE Division from                    Program project that is building the full-scale
effectively tracking its efforts to timely             secure messaging system.
replace vital processes with permanent
                                                       The PSMS Prototype is the IRS’ first system
solutions. Workarounds that are not timely
                                                       that uses the Internet to directly interact with
replaced with permanent solutions could
                                                       the public to exchange taxpayer information.
result in work stoppages and prevent the
                                                       The Prototype identified significant lessons
TE/GE Division from achieving its
                                                       concerning the implementation of an
modernization vision.
                                                       Internet-based messaging process. However,
Now that the TE/GE Division has become an              IRS management should move the PSMS
independent entity within the IRS, it must rely        Prototype and similar ETA systems
on other business units to assist its managers         development initiatives to the Chief
in meeting the modernization vision. Without           Information Officer’s (CIO) organization to
establishing effective working relationships           be consistent with the IRS’ response to prior
with these other business units, the TE/GE             audit recommendations as well as the IRS
Division could be at risk of not accomplishing         Organization Blueprint 2000, which
its mission, goals, and objectives.                    consolidates all systems development
                                                       activities under the CIO. Also, the IRS
The Office of Audit recommended that a
                                                       should strengthen the PSMS Prototype project
senior-level official be selected to oversee
                                                       management and spending controls.
future modernization activities and establish
ownership and oversight responsibility for             IRS management agreed with the project
addressing stakeholder concerns and                    management and spending control issues and
comments. Also, management should                      has initiated corrective actions. However,
establish formal agreements and processes to           IRS management did not agree with the
better plan, control and oversee the work              recommendation to move the PSMS
performed by internal and external support             Prototype and similar ETA systems
organizations. In addition, the risks that core        development initiatives to the CIO
processes could result in disruptions to               organization. The Office of Audit continues
customer service should be identified and              to believe that managing systems
monitored.                                             development initiatives outside the CIO
                                                       organization increases the risk of inconsistent
IRS management agreed with the audit
                                                       and ineffective project management processes
recommendations.
                                                       and of fragmented systems modernization
                                                       initiatives, which could lead to delays, cost
Controls Over the Development of the
                                                       overruns and rework.
Practitioner Secure Messaging System
Prototype Should Be Improved
                                                       Electronic Signature Initiatives Could
(Reference No. 2001-20-022)
                                                       Be Better Defined and Evaluated
The IRS’ Electronic Tax Administration                 (Reference No. 2001-20-043)
(ETA) management developed the
                                                       The IRS’ goal is to have at least 80 percent of
Practitioner Secure Messaging System
                                                       all tax returns filed electronically by 2007.
(PSMS) Prototype to support the design of a
                                                       To increase the number of electronically filed
full-scale system that will provide a secure
                                                       returns, the IRS has implemented Personal
Internet environment for tax practitioners and
                                                       Identification Numbers (PIN) as an alternative

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  10
                                        Semiannual Report to the Congress



to handwritten signatures. As of
                           review the operational alternative signature
September 24, 2000, the IRS had
                            initiatives for compliance. However, IRS
electronically received approximately
                      management did not agree to revise the
35 million (28 percent) of the 126 million
                 program evaluation process. Instead, the IRS
individual income tax returns filed. Of the
                believes that existing program evaluation
35 million electronically filed individual
                 measures and cost related documents are
returns, nearly 12 million were signed with a
              sufficient to evaluate the program, identify
PIN.
                                                       areas for improvement, and select the most
                                                            feasible approach.

    Individual Income Tax Returns Filed in Millions
                                                            The Office of Audit continues to believe that
                   1/1/2000 - 9/24/2000                     improvements are needed to ensure that the
                                                            cost effectiveness of decisions to expand or
                                              23            terminate specific alternative signature
        91                        35        (18%)
      (72%)                     (28%)                       initiatives, and the anticipated effect on the
                                              12            number of electronic returns filed by
                                            (10%)
                                                            taxpayers, are readily available. Although
      Paper Returns
                                                            management indicated program evaluations
      Electronic Returns with Handwritten Signature         were done for each alternative, the Office of
      Electronic Returns with PIN Signature                 Audit was unable to obtain documentation of
                                                            the evaluations for several of the alternatives.
Source: IRS Service Center Processing and Production
Reports                                                     Management Advisory Report: The

The Office of Audit reported that the IRS has               Probability of Meeting Electronic Tax

not finalized requirements defining the                     Administration Goals Remains

minimum acceptable controls for the use of                  Questionable

PINs as alternative signatures. In addition,                (Reference No. 2001-40-047)

the IRS lacks detailed cost benefit analyses                The IRS processes over 200 million returns
for the operational alternative signature                   while collecting tax revenues totaling
initiatives and comprehensive assessments of                $1.7 trillion each year. However, efforts to
program performance. Therefore, the cost                    modernize its processing systems remain
effectiveness of decisions to expand or                     constrained since most tax returns are filed on
terminate specific alternative signature                    paper rather than electronically. Increasing
initiatives, and the anticipated effect on the              electronic filing improves tax return
number of electronic returns filed by                       processing by significantly reducing errors
taxpayers, are not readily available.                       and labor costs and is essential for
The Office of Audit recommended that the                    modernization to be effective.
IRS finalize requirements for the use of PINs               The IRS has established a framework for
and ensure that all operational alternative                 accomplishing its electronic filing goals in the
signature initiatives comply with the                       ETA Strategic Plan, but the probability of
requirements. In addition, the IRS should                   meeting these goals remains questionable.
prepare detailed program evaluations for                    From 1998 to 1999, the IRS increased the
operational PIN alternative signature                       number of electronically filed returns by over
initiatives and conduct comprehensive cost                  19 percent for individual returns and
benefit analyses for future initiatives.                    56 percent for information returns. During
IRS management agreed to finalize the                       2000, it also experienced an increase in
signature authentication requirements and                   electronic filing. For example, electronically


                           Treasury Inspector General for Tax Administration
                                            March 31, 2001

                                                       11
                                                                                                                         Semiannual Report to the Congress



filed individual returns increased from                                                                                                                               Percentage of 1999 Returns Filed Electronically
23.4 percent in 1999 to 28 percent in 2000.                                                                                                                                            (In Millions)
                                                                                                                                                                                                                     Percent of
While the IRS increased the number of                                                                                                                                                    Total         E-File          Total
electronically filed returns in both 1999 and
                                                                                                                                                                   Individual
2000, achieving the 2003 interim goal of                                                                                                                           Returns               125.1           29.3           23.4
having all computer-prepared paper returns
                                                                                                                                                                   Business
filed electronically is not probable. It is also                                                                                                                   Returns                69.8           5.7             8.2
questionable whether the IRS can accomplish
                                                                                                                                                                   Information
the 2007 goal of having 80 percent of all                                                                                                                          Returns              1,240.0         121.5            9.8
federal tax and information returns filed
                                                                                                                                                                        Total           1,434.9         156.5           10.9
electronically. Success will require a
sustained and substantial effort by the IRS to                                                                                                                     Source: ETA Strategy for Growth, Information Return
                                                                                                                                                                   Volumes for 1999 from the Executive Officer of Service Center
increase the number of electronically filed                                                                                                                        Operations, and Statistics of Income Projections for Returns to
returns over the next seven years.                                                                                                                                 be Filed

                                                                                                                                                                   The Office of Audit recommended that the
                                                                                                                                                                   IRS improve its strategic planning process to
                                                               Growth Necessary to Achieve 2007 Goal for                                                           include incremental project milestones or
                                                                     Information Returns (Millions)
                                                                                                                                                                   sufficient performance measures to evaluate
                            Information Returns Filed




                                                            2,000
                                                            1,750
                                                                                                                                                                   each initiative’s progress and its ultimate
                                                            1,500
                                                            1,250
                                                                                                                                                                   impact on electronic filing. The ETA
                                                            1,000
                                                              750
                                                                                                                                                                   Strategic Plan should also clearly define the
                                                              500                                                                                                  impact of information returns filed on
                                                              250
                                                                0
                                                                         19       20      20            20        20      20     20      20            20
                                                                                                                                                                   magnetic media. These returns will
                                                                           99       00      01            02        03      04     05      06            07
                                                                                                                                                                   significantly affect the IRS’ ability to achieve
                                                                                All Information Returns
                                                                                Steady Growth to Achieve 80 Percent
                                                                                                                                                                   its electronic filing goals because banks and
                                                                                                                                                                   employers will need to convert over one
Source: 1999 A Strategy for Growth and the Electronic Tax                                                                                                          billion returns from magnetic tape to
Administration Advisory Committee Report to Congress dated
June 30, 2000
                                                                                                                                                                   electronic filing within the next seven years.
                                                                                                                                                                   The plan did not adequately distinguish
                                                                                                                                                                   between those returns filed electronically
                                                                                                                                                                   versus those received on magnetic tape.
                                                                    Growth Necessary to Achieve 2007 Goal
                                                                       for Individual Returns (Millions)                                                           In January 2000, the IRS reviewed the ETA
                                                                                                                                                                   strategy and identified the need to focus its
 Individual Returns Filed




                                 160
                                 140
                                 120
                                                                                                                                                                   efforts on the most critical issues. In addition,
                                 100                                                                                                                               an outside advisory council emphasized that
                                             80
                                             60                                                                                                                    the past increases in the electronic filing rate
                                             40
                                             20
                                                                                                                                                                   must be sustained and suggested establishing
                                                        0
                                                                                                                                                                   new initiatives to help achieve the necessary
                                                                                                                                                                   growth rate. By addressing these concerns
                                                               20



                                                                        20



                                                                                   20



                                                                                                 20



                                                                                                               20



                                                                                                                         20



                                                                                                                                  20



                                                                                                                                                20
                                                                          01



                                                                                     02




                                                                                                                 04




                                                                                                                                                  07
                                                                 00




                                                                                                   03




                                                                                                                           05



                                                                                                                                    06




                                                                            All Individual Returns                                                                 and implementing enhancements in the
                                                                            Steady Growth to Achieve 80 Percent                                                    strategic planning process, the IRS should
Source: Statistics of Income Projections of Information and                                                                                                        increase the likelihood that its vision for
Withholding Documents in the United States for Paper and                                                                                                           electronic filing becomes a reality.
Non-Paper Totals for Filing Seasons 2000-2008 and Combined
Total of Electronically Transmitted Magnetic Tape and Paper
                                                                                                                                                                   This report was issued for information use
                                                                                                                                                                   only and did not require a response.


                                                                                           Treasury Inspector General for Tax Administration
                                                                                                            March 31, 2001

                                                                                                                                                              12
                              Semiannual Report to the Congress



Management Advisory Report:
                            may browse web sites for personal reasons.
Additional Management Actions Are
                      Treasury guidelines require employees to use
Needed for Placing Small
                               the Internet for official duties only.
Business/Self Employed Division
                        The Office of Audit reported that over half of
Transition Employees
                                   the time spent on the Internet by IRS
(Reference No. 2001-30-054)
                            employees was for personal reasons. The
The Office of Audit determined that                     following chart presents the percentage
management of the new SB/SE Division                    breakdown of the types of non-business web
generally took effective steps to ensure                sites accessed by IRS employees.
transition employees were placed in
temporary assignments after the stand up of                     IRS Internet Accesses for
the division. However, information provided                      Non-Business Purposes
to transition employees regarding their
                                                              Internet
temporary assignments was sometimes                           Chat
incomplete. In addition, a long-term                                                 Misc.
                                                              Room and
                                                                                     14%
coordinated strategy is needed for placing the                Email
                                                                  23%                         Search
remaining transition employees in permanent                                                  Requests
positions.                                                                                     11%

IRS records indicate that, of the over 800                                                  Streaming
                                                                                            Media
transition employees located in the SB/SE                                                      10%
Division at stand-up, there were 394 transition                 Financial              News
employees still remaining as of                                   26%                  Outlets
                                                                               Shopping 9%
February 10, 2001. Approximately 28 percent                                      7%
of these 394 employees are IRS analysts (job
series 343), and 38 percent of the remaining
employees are grade 13 or higher. Based                 The Non-Business Miscellaneous category
upon the current transition process, it could be        consists of accesses to all other web sites that
                                                        appeared to be for non-business purposes,
several months or even years before all
transition employees have resigned, retired, or         including sports, sexually explicit, and
been placed in permanent positions.                     gambling sites.

This report was issued for information use              While Internet accesses to sexually explicit
only and did not require a management                   web sites were relatively low (0.4 percent) in
response.                                               the seven-day sample, they are significant
                                                        because the web site contents may be
                                                        offensive and could foster a hostile work
       Providing Security Over                          environment. The Office of Audit referred
        Information Systems                             the most egregious instances of misuse to
                                                        TIGTA’s Office of Investigations. These
Employees’ Extensive Personal Use of                    referrals were evaluated for potential legal
the Internet Should Be Controlled                       violations. The IRS also lost productivity and
(Reference No. 2001-20-016)                             its telecommunications lines were impacted.
Use of the Internet offers tremendous research          The Office of Audit recommended that IRS
capabilities to IRS employees. About 16,000             management use software to block the use of
IRS employees currently use the Internet, and           inappropriate sites and begin monitoring the
use could expand to the remaining 97,800                use of the Internet.
employees. One risk associated with
providing Internet access is that employees

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                   13
                                 Semiannual Report to the Congress



IRS management generally agreed with the                 small corporation exemption from the
findings. IRS management agreed to focus on              alternative minimum tax. Without significant
using commercially available blocking                    manual effort, the IRS could not identify these
software, educating employees and managers               errors. As a result, these taxpayers were not
on employee productivity issues, and                     informed of their errors and, accordingly, are
performing random checks on usage.                       likely to repeat them.
However, IRS management’s response was
                                                         The Office of Audit recommended that the
incomplete because it did not identify the
                                                         IRS publicize the alternative minimum tax
specific corrective actions to be taken, the
                                                         exemption by issuing a public announcement
responsible officials, and the implementation
                                                         to taxpayers and by enhancing taxpayer
dates. The Office of Audit is continuing to
                                                         education materials.
follow up to obtain this information.
                                                         By the beginning of the 2001 filing season,
                                                         the IRS agreed to incorporate the alternative
        Processing Returns and                           minimum tax issue into various outreach
     Implementing Tax Law Changes                        programs, workshops, and practitioner
                                                         institutes. The IRS also plans to design a
Letter Report: More Small Corporate
                     strategy to identify the taxpayers affected by
Taxpayers Can Benefit from the
                          this issue and determine corrective actions for
Alternative Minimum Tax Exemption
                       these taxpayers. Finally, the IRS plans to
Provision
                                               explore ways to enhance taxpayer instructions
(Reference No. 2001-30-019)
                             in publications and on tax forms to emphasize
The Taxpayer Relief Act of 19978 provided
               the alternative minimum tax exemption for
an exemption from the alternative minimum
               qualifying small corporations.
tax for qualified small business corporations

for tax years beginning after
                           The Internal Revenue Service Had a

December 31, 1997. Once a corporation
                   Successful 2000 Filing Season;

qualifies as a small corporation, it will not be
        However, Opportunities Exist to More

liable for the alternative minimum tax so long
          Effectively Implement Tax Law

as it remains a small corporation.
                      Changes

                                                         (Reference No. 2001-40-041)

The Office of Audit identified over 2,000

businesses that paid the alternative minimum
            The IRS effectively processed individual
tax as part of their calendar year 1998 taxes,
          paper tax returns filed during the 2000 filing
yet appeared to meet the gross receipts criteria
        season. As of April 28, 2000, the IRS had
to qualify as small corporations. In a
                  processed over 54 million paper individual tax
statistical sample of these businesses,
                 returns. Although there were some isolated
93 percent qualified for the exemption but had
          problems, opportunities do exist for the IRS to
self-assessed an average of $11,638 in
                  more effectively implement three tax law
alternative minimum tax. The Office of Audit
            changes that were in effect during the
estimated that these corporations paid over
             2000 filing season. These laws related to the
$25 million in alternative minimum tax that
             Child Tax Credit (CTC), the Additional Child
the Act specifically exempted.
                          Tax Credit (ACTC), and to S-SSNs.
The Office of Audit concluded that many
                 The IRS postponed programming changes
taxpayers and their tax professionals may
               designed to validate the date of birth related to
have overlooked their qualification for the
             the CTC and the ACTC. As a result, it did
                                                         not identify potentially unqualified or
                                                         erroneous CTC and ACTC claims. The
8
    Pub. L. No. 105-34, 111 Stat. 788

                        Treasury Inspector General for Tax Administration
                                         March 31, 2001

                                                    14
                              Semiannual Report to the Congress



Office of Audit identified over 750,000 1998           The Office of Audit plans to address the issue
and 1999 tax returns with over $339 million            of system capacity during the audit of the
of potentially unqualified CTCs that could not         FY 2001 filing season. The Office of Audit
be supported by IRS date of birth information.         continues to encourage the IRS to focus on
The Office of Audit also identified 33,000 tax         recovering the refunds resulting from the
returns that had over $12 million in                   unqualified CTC claims.
potentially unqualified ACTC claims.
                                                       Electronic Returns Were Processed

The IRS Assistant Chief Counsel (Income
                                                       Effectively

Tax and Accounting) concluded in 1999 that
                                                       (Reference No. 2001-40-008)

the IRS may not recover through assessment
an erroneous ACTC refund due to legal                  E-filed returns improve service for taxpayers
limitations. However, collection actions can           and boost production by reducing errors,
be initiated on the potentially erroneous              speeding refunds, and reducing labor costs.
refunds resulting from the unqualified CTC             As of June 15, 2000, the IRS had processed
claims.                                                35.2 million individual electronic returns,
                                                       105 percent of the 33.6 million projected for
In addition, during the 2000 filing season, the
                                                       the 2000 filing season.
IRS modified its computer programming
designed to verify S-SSNs. This action was             Overall, the IRS’ system for accepting and
taken due to storage limitations on the                processing individual electronic returns was
computer systems it uses to correct errors on          effective. For example, the controls for
tax returns. As a result, the IRS could not            ensuring that individual electronic returns are
ensure that taxpayers were compliant with              accepted only from Authorized IRS E-file
these tax laws. According to the IRS’ own              Providers were working properly, and the IRS
estimates, approximately 2.7 to 3 million              properly notified unauthorized E-file
taxpayers have invalid S-SSNs.                         Providers when their transmissions were
                                                       rejected. While some problems occurred
The Office of Audit recommended that the
                                                       early in the filing season, they were quickly
IRS should implement computer
                                                       identified and corrected. In addition, the IRS
programming changes to ensure that
                                                       effectively implemented the enhancements
taxpayers comply with tax laws relating to the
                                                       added to the individual E-file Program for the
CTC, the ACTC, and S-SSNs and initiate
                                                       2000 filing season.
actions to recover the potential lost revenue
due to the postponed programming for these             The Office of Audit identified an opportunity
issues. The IRS should also ensure that its            for the IRS to improve the service it provides
computer system has the capacity to correctly          to Authorized Providers through its Help
process tax returns and should send notices to         Desk. The Office of Audit reviewed the Help
taxpayers with invalid S-SSNs in sufficient            Desk operations at three of the five processing
time to allow for corrections.                         sites. One site servicing over 37,000
                                                       Authorized Providers delivered ineffective
IRS management agreed with three of the five
                                                       customer service.
recommendations. IRS management believes
that the current capacity of the computer              When Authorized Providers do not receive
system used to store errors found on returns is        timely help in resolving their processing
sufficient. They also stated that additional           problems, the IRS is at risk of damaging
legal guidance would be needed to attempt              relations with, and increasing the burden on
recovery of the CTC mentioned in the report,           both the Authorized Providers and the
and that the collection costs would likely             taxpayers they represent. In addition, the
exceed the amount of overpayments.                     Providers may have to make additional


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  15
                              Semiannual Report to the Congress



contacts with the IRS to resolve inquiries, and        calls in 2001, and postpones plans to free up
may ultimately call another processing site’s          telephone assistors for other work.
Help Desk, causing workload imbalances
                                                       The Office of Audit recommended that
among the processing sites.
                                                       project managers timely complete all ELC
The auditors recommended the IRS carry out             recommended work products and not allow
its plans to develop and implement National            projects to exit ELC milestone requirements
Headquarters standards and guidance to                 when significant work products are
correct the operational weaknesses identified.         incomplete. Further, project managers need
                                                       to develop and communicate realistic project
IRS management acknowledged the need to
                                                       schedules, timely incorporate necessary
improve the customer service provided to
                                                       security considerations, and ensure that risk
Authorized IRS E-file Providers and
                                                       tracking and reporting are timely, complete
identified several steps to address this need.
                                                       and accurate.
                                                       IRS management agreed with some of the
  Providing Customer Service and                       recommendations and has either taken or
     Ensuring Tax Compliance                           initiated corrective actions for these
                                                       recommendations. However, they did not
Progress in Developing the Customer
                   agree that all critical work products be
Communications Project Has Been
                       completed before moving to the next ELC
Made, But Risks to Timely Deployment
                  milestone. The Office of Audit believes that
in 2001 Still Exist
                                   failure to do so increases the risk of
(Reference No. 2001-20-055)
                           unexpected project glitches, delays, and cost
The Customer Communications Project                    overruns. Since the IRS is in the early stages
(CCP) is intended to increase telephone and            of its systems modernization effort, the Office
communication service levels to taxpayers              of Audit believes it is important to completely
comparable to those of similar customer                follow the ELC methodology in order to
service operations in the private sector.              apply lessons learned to other projects. As
                                                       the IRS matures, more flexible program
While the IRS has demonstrated progress in
                                                       management can and should be considered.
developing project management capabilities,
it acknowledged that it would not be able to
                                                       The Internal Revenue Service Does Not

provide taxpayers all of the enhancements and
                                                       Effectively Use the Trust Fund

benefits that it originally proposed for the
2001 filing season. For example, the                   Recovery Penalty as a Collection

telephone and Internet self-service                    Enforcement Tool

applications were postponed until 2002, and            (Reference No. 2001-30-014)

the remaining capabilities were rescheduled            The Trust Fund Recovery Penalty (TFRP) is
for deployment during the latter part of the           an IRS enforcement tool established both to
2001 filing season.                                    encourage the prompt payment of taxes that
                                                       employers withhold or otherwise collect, and
The Office of Audit reported that the CCP fell
                                                       to provide the IRS with a secondary source of
behind schedule, in part, because some key
                                                       collection in the event these taxes are not
Enterprise Life Cycle (ELC) work products
                                                       paid. When assessments are not made timely
were not timely completed and identified
                                                       against responsible company officers, the
barriers to project deployment had not yet
                                                       financial ability of the officers could
been overcome. Delays in delivering CCP
                                                       deteriorate, thereby decreasing the IRS’
benefits will hamper the IRS’ expectations of
                                                       chances to collect taxes due.
answering an additional 9.6 million taxpayer


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  16
                              Semiannual Report to the Congress



Based on a sample review of 82 trust fund              More Consideration Is Needed During

cases, the Office of Audit reported that the           Examinations to Identify Potential

Collection Field function (CFf) did not                Fraud Issues and Refer Cases to

properly use the TFRP to enforce collection            Criminal Investigation

of trust fund taxes and, when utilized, it was         (Reference No. 2001-30-063)

used ineffectively, incorrectly or too late in
                                                       When Examination function employees
the collection process.
                                                       identify potential fraudulent issues, such as
In 58 instances, the CFf did not properly              significant amounts of unreported income,
complete the investigative process or assess           they are to refer the cases to the Criminal
the penalty when appropriate. In 17 other              Investigation (CI) Office to determine
cases, the CFf assessed the penalty but did not        whether taxpayers criminally violated federal
make the decision within the required time             tax laws. Over the past few years, IRS
frame.                                                 executives have attempted to identify ways to
                                                       increase the number of quality fraud referrals.
The CFf also accepted installment agreements
                                                       Despite these efforts, the number of
on repeater taxpayers and delayed the TFRP
                                                       investigations has declined from a high of
process. A “repeater” is defined as a taxpayer
                                                       1,223 in FY 1996 to only 256 in FY 2000, as
who owes taxes for multiple periods, over a
                                                       shown in the following chart:
specified amount. IRS guidelines state that
installment agreements are not to be granted
to a “repeater” except under the most                                       CI Investigations As a Result of
stringent conditions.                                                            Examination Referrals
Finally, the CFf did not always assess the
                                                          Investigations




TFRP against all responsible company                                       1500
officers. All individuals identified as                                    1000
                                                                                                               Total
responsible officers are to be assessed the                                 500
TFRP, when it is applicable. The CFf did not                                  0
always consider unfiled returns when                                              1996 1997 1998 1999 2000
determining whether to assess the TFRP. The                                              Fiscal Year
TFRP is to be assessed when the total amount
of tax liability exceeds a specific dollar             Source: Criminal Investigation
amount. Part of the CFf’s compliance check             Examination function managers and
is to secure delinquent returns or prepare             employees were not always recognizing and
substitutes when originals are not filed.              developing potential fraud issues and,
The Office of Audit recommended that                   therefore, were not referring cases to CI when
management reassess the time frames for                appropriate. The Office of Audit’s review of
making the TFRP decision and provide clear             100 closed Examination cases identified
instructions on using the TFRP and                     11 cases that met the criteria for a criminal
installment agreement procedures on repeater           fraud referral; however, they were not
trust fund cases. Use of the TFRP as an                referred to CI. In addition, in 82 of the
effective collection tool needs to be                  100 cases, the examiners did not document in
emphasized at all management levels, and               the case file, as required, whether potential
management reviews need to be conducted on             fraud was recognized and considered. The
these priority cases.                                  majority of these cases involved understated
                                                       income.
IRS management agreed to implement all
audit recommendations.


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  17
                             Semiannual Report to the Congress



Finally, required management involvement in                 Providing Quality Customer
the cases related to documenting whether                        Service Operations
fraud was considered was not sufficient in 64
of the 80 cases in which the return had                Management Advisory Report:
understated income over $10,000.                       Strategic Planning for Toll-Free
Based on the sample results, the Office of             Telephone Operations Has Made
Audit estimated that 381 additional cases              Significant Progress, But Further
nationwide may have had potential fraud                Improvements Are Needed
issues for referral to CI during the 16-month          (Reference No. 2001-30-006)
sample period. Also, the Office of Audit               The toll-free telephone system is a
estimated approximately $21.8 million                  cornerstone of IRS’ customer service
additional revenue from civil fraud could have         operations. During FY 1999, taxpayers
been assessed during the sample period.                attempted nearly 108 million calls to the IRS’
Examination employees gave three overall               three main toll-free telephone lines. The
reasons for not making referrals: RRA 98 has           GPRA requires all federal agencies to prepare
made employees reluctant to refer cases; CI            strategic plans for how they will deliver high
rejects a high percentage of cases referred;           quality products and services to the American
and, they are no longer working the types of           public.
cases that yield referrals.                            Past efforts by IRS management to
The Office of Audit recommended that IRS               strategically plan and implement
management enhance the processes that                  improvements to the toll-free telephone
identify open cases with potential fraud issues        operations, while extensive, have not resulted
through various methods including, for                 in the delivery of a high level of quality
example, requiring certain cases be discussed          service to taxpayers. Although the level of
with fraud specialists. IRS management                 service provided to taxpayers on the three
should also adjust the mix of cases being              main toll-free lines increased from 50 percent
examined to include more returns that have             in FY 1999 to 59 percent in FY 2000 (through
historically yielded fraud potential. In               July 1, 2000), it remained well below the
addition, IRS management should show                   68 percent level achieved in FY 1998.
front-line employees their commitment to the           The IRS is in the process of implementing an
fraud referral program by regularly                    agency-wide strategic planning process that
emphasizing its priority and setting clearer           provides a more structured approach than its
guidelines on what constitutes a successful            prior planning efforts. The effectiveness of
fraud referral.                                        this process can be enhanced by implementing
SB/SE Division management agreed with the              a “customer-driven” planning system to better
findings and recommendations and is                    understand customer needs and by developing
initiating corrective actions. However, they           a monitoring system that enables management
did not concur fully with the financial                to respond more quickly to problems.
accomplishment discussed in the report.                IRS management agreed with the facts and
                                                       recommendations. However, their response
                                                       did not provide specific details on planned
                                                       corrective actions.




                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                  18
                                 Semiannual Report to the Congress



         Protecting Revenue and                          the AML Program in the new IRS business
        Minimizing Tax Filing Fraud                      units and strengthen that oversight capability;
                                                         2) develop and deliver an educational/
The Program for Ensuring Compliance                      information package to a much larger number
With Anti-Money Laundering Reporting                     of covered businesses; 3) improve field
Requirements Should Be Improved                          manager accountability for AML Program
(Reference No. 2001-40-024)                              objectives; 4) establish measurable
                                                         performance indicators; 5) improve the
Since 1970, the Treasury Department has                  tracking of results; 6) ensure more full-time
delegated to the IRS Commissioner the                    employees are assigned in local offices: and,
responsibility for assuring that businesses              7) ensure AML Program examiners
which routinely exchange or handle money,                nationwide receive sufficient training. The
but are not banks, comply with Title 31 of the           Treasury Department’s Financial Crimes
Bank Secrecy Act (BSA)9 . This section                   Enforcement Network (FinCEN) managers
requires that certain financial institutions keep        advised us that they are already in the process
records of, and provide reports to the                   of working with the IRS to strengthen the
government, about large dollar and suspicious            program.
financial transactions.
                                                         IRS management agreed with the audit
A 1997 study by Coopers & Lybrand LLP                    recommendations and has initiated corrective
estimated there were about 158,000 of these              action.
non-banks, such as money remitters and
check cashers, handling financial transactions           Improvements Are Needed in the
totaling $200 billion annually. The IRS’                 Earned Income Credit Recertification
Examination function is responsible for                  Program (Reference No. 2001-40-030)
assuring that these non-banks comply with the
BSA financial transaction reporting and                  Historically, the EIC has been subject to
record-keeping requirements, as part of the              abuse by taxpayers claiming credits they are
Examination Anti-Money Laundering (AML)                  not entitled to receive. As a result, Congress
Program.                                                 passed legislation in 1997 requiring taxpayers
                                                         whose EIC was denied during audits to prove
The Office of Audit reported that the IRS                their eligibility for the credit before they can
needs to improve its program for ensuring                receive the EIC again. In response to this
compliance with AML reporting requirements               legislation, the IRS implemented the EIC
and to improve controls over the program to              Recertification Program in January 1999.
reasonably ensure objectives are achieved.
Without changes there is a significant risk of           The EIC Recertification Program should
undetected noncompliance and increasingly                reduce the amount of incorrect EIC allowed
inconsistent program delivery nationwide.                by the IRS. The Office of Audit estimates
There is also increased risk of not being able           that, as of September 30, 1999, the IRS
to evaluate the success of the program as                properly placed recertification indicators on
provided by GPRA. In addition, the absence               336,000 taxpayer accounts while denying,
of effective controls makes it difficult for the         during audits, an estimated $620 million in
IRS to identify and correct program                      EIC claims.
weaknesses or deficiencies.                              The Office of Audit identified the following
The Office of Audit recommended that the                 conditions that adversely affected the IRS’
IRS: 1) establish oversight responsibility for           ability to safeguard revenue and ensure
                                                         taxpayer rights with the least amount of
                                                         burden to taxpayers: recertification indicators
9
    Pub. L. No. 91-508, 31 U.S.C. Chapter 53

                        Treasury Inspector General for Tax Administration
                                         March 31, 2001

                                                    19
                             Semiannual Report to the Congress



were not always removed accurately; some             recovered, though, fall significantly short of
suspended refunds were not released timely;          the $630 million because the vast majority of
recertification audits were not always timely        attempts to recover overclaims come several
processed; not all recertification                   months after the taxpayers have received the
determinations were accurate; and, taxpayer          related tax benefits. Many of the assessments,
correspondence could be improved.                    including most associated with the EIC, may
                                                     never be recovered. Conversely, the current
The Office of Audit recommended that IRS
                                                     process causes some entitled taxpayers to
management should ensure that employees
                                                     receive notices and have their tax returns and
process recertification cases accurately and
                                                     personal records examined unnecessarily.
timely. In addition, IRS management should
ensure its quality review process accurately         The Office of Audit recommended that the
assesses the Program’s performance and               IRS needs to improve its process for the
should consider modifying the Program to             detection and deterrence of duplicate
ensure that taxpayers are recertified for the        dependent overclaims to ensure the protection
reasons for which their EIC was originally           of tax revenue. Specifically, the IRS needs to
denied.                                              ensure complete data are used in its duplicate
                                                     dependent detection process, improve its
IRS management agreed with 10 of 12
                                                     efforts to deter noncompliance, and strengthen
recommendations. It did not agree with the
                                                     its oversight and strategy for the detection and
recommendation to improve its quality review
                                                     deterrence of duplicate dependent overclaims.
process, and IRS Counsel will address the
recommendation to increase revenue                   IRS management generally agreed with the
protection in a separate report.                     recommendations and has initiated corrective
                                                     actions.
Duplicate Dependent and Qualifying
Child Overclaims Result in Substantial               Additional Efforts Are Needed for
Losses of Tax Revenue Each Year                      Improving Revenue Protection
(Reference No. 2001-40-059)                          (Reference No. 2001-40-021)
Each year the IRS identifies an average of           In 1993, the IRS acknowledged the problem
1.6 million taxpayers who incorrectly claim          of filing fraud and estimated tax fraud and
dependents that are also claimed on someone          abuse to be in the millions of dollars. To
else’s tax return (commonly called “duplicate        combat tax filing fraud and abuse, the IRS
dependent overclaims”). Approximately                implemented the Revenue Protection Strategy
$700 million in tax revenue is lost each year        (RPS), comprised of individual initiatives to
due to these overclaims. However, the IRS            improve taxpayer compliance and, in April
does not identify these duplicate dependent          1994, established the Office of Refund Fraud
overclaims until several months after the            (ORF) to lead those efforts.
erroneous refunds are issued.
                                                     In 1997, the Congress appropriated over
For Tax Years 1995 through 1998, taxes owed          $700 million during a five-year year period to
were reduced and erroneous refunds were              fund initiatives to improve EIC compliance.
processed totaling approximately $2.8 billion        In 1998, the IRS established the EIC Program
relating to 4.4 million overclaims. The IRS          Office to oversee and coordinate the IRS’ EIC
has attempted to recover (through                    Program. The establishment of this
correspondence examinations and voluntary            appropriation and office caused a major shift
amended tax return filings) only $630 million        in focus from the ORF to the new EIC
(23 percent) of the tax benefits erroneously         Program Office; however, the ORF continued
provided to individuals. The funds actually          to address filing fraud and abuse issues,


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                20
                               Semiannual Report to the Congress



including the EIC. As a result of the RPS, the           IRS management agreed with the audit
IRS implemented additional checks in its                 recommendations and has initiated corrective
return processing procedures to improve                  action.
taxpayer compliance. These processing
checks resulted in increased revenue
protection by detecting tax filing schemes and
                                                              Protecting Taxpayer Rights
abuse and by preventing the IRS from issuing
                                                         Improved Case Monitoring and

many erroneous refunds.
                                                         Taxpayer Awareness Activities Can

In January 2001, the GAO identified                      Enhance the Effectiveness of the Tax

“Noncompliance with the Earned Income                    Practitioner Disciplinary Proceedings

Credit” as a high-risk area for the IRS. The             Program

GAO reported that noncompliance with the                 (Reference No. 2001-10-027)

EIC exposes the federal government to                    The success of the disciplinary proceedings
billions of dollars of risk.                             program is dependent on the IRS timely
The Office of Audit agrees with GAO’s                    identifying and initiating corrective action
assessment that noncompliance with the EIC               against incompetent or disreputable tax
is a high risk for the IRS. However, the                 practitioners to protect the public from further
Office of Audit believes the high risk to the            harm. A lack of adequate staffing in the
IRS is in its overall efforts to protect revenue,        Director of Practice’s Office resulted in
and that noncompliance with the EIC is just              delays in assigning and processing tax
one piece in improving revenue protection.               practitioner complaints.
The Office of Audit noted that the                       To help relieve the backlog of work, the
establishment of the EIC funding and creation            Deputy Commissioner Operations assigned
of the EIC Program Office caused a shift in              five additional attorneys to the Director of
IRS’ focus; from revenue protection to                   Practice in April 2000. It will be difficult to
noncompliance with the EIC. Management of                determine whether the additional resources
RPS initiatives has been fragmented. Each                will reduce the processing times because the
functional area has its own results measure,             Office does not maintain information
and there is no overall goal and performance             necessary for monitoring case activity and
measure to gauge the impact of these                     tracking resource expenditures.
initiatives on reducing noncompliance. The
                                                         Although the current automated case tracking
individual initiatives alone are not enough to
                                                         system has the capacity to generate reports to
ensure the IRS is effectively addressing filing
                                                         assist in monitoring cases and resources, the
fraud and abuse.
                                                         needed programming has not been completed.
The Office of Audit recommended that the                 Also, the system was not always updated or
IRS develop a comprehensive RPS with                     accurate, and an inventory reconciliation had
established measurable goals and objectives              not been conducted since the system was
to evaluate the effectiveness of the Strategy.           established in 1998.
Until the RPS is developed and implemented,
                                                         Additionally, information was not readily
the IRS should develop a process to measure
                                                         available to the taxpaying public regarding
the effectiveness of individual initiatives on
                                                         how to report violations by tax practitioners.
reducing noncompliance. Once developed,
                                                         The IRS web site, publications, and forms did
the RPS should also contain provisions for               not provide information on how to report
measuring the effect of its components on
                                                         allegations of tax practitioner violations.
reducing noncompliance.
                                                         Customer Service and National Taxpayer
                                                         Advocate employees assisting taxpayers on

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                    21
                              Semiannual Report to the Congress



the telephone did not have information on              request the taxpayer’s information a second
how to report allegations of tax practitioner          time, they made the request for information in
violations.                                            writing and provided the taxpayer an explanation
                                                       of the consequences of not providing the needed
The Office of Audit recommended that the
                                                       information.
automated case tracking system should be
upgraded to provide reliable data to monitor           In almost half of the cases, problems were not
case activities and resource requirements.             resolved to taxpayers’ satisfaction. In a majority
Also, the IRS web site and publications                of these cases, the IRS was not able to
should include information on how to report            accommodate the taxpayer because of I.R.C.
practitioner violations.                               requirements or because the taxpayers did not
                                                       respond to the caseworkers’ requests for
IRS management agreed with the
                                                       additional information or documents.
recommendations and is taking appropriate
corrective action.                                     The Office of Audit recommended that the
                                                       National Taxpayer Advocate use quality
The National Taxpayer Advocate Can
                    review results to identify national training
Improve the Service Provided to
                       needs and emphasis areas, and require local
Taxpayers
                                             Advocates to report quarterly on actions taken
(Reference No. 2001-10-001)
                           to address areas warranting improvement.
In the cases reviewed by the Office of Audit,          The Office of Audit also recommended that
National Taxpayer Advocate caseworkers did             the National Taxpayer Advocate reinstate, as
not always address taxpayers’ problems                 a quality review standard, the authorized
                                                       disclosure of taxpayer information, and
accurately and timely, or effectively
communicate with taxpayers. The Taxpayer               require front-line managers to evaluate
Advocate offices also experienced delays in            compliance with this standard.
working cases, sometimes in excess of                  The IRS Commissioner responded that the
30 calendar days. Moreover, caseworkers did            report findings were based on cases
not always ensure that other IRS employees             completed by Problem Resolution Program
stopped contacting taxpayers or that the IRS           caseworkers who were assigned to functional
stopped issuing collection notices while the           divisions prior to the stand up of the Taxpayer
taxpayers’ problems were being resolved. In            Advocate Service on March 12, 2000. While
addition, there were several instances where           corrective actions stated in the management
caseworkers had communicated with third                response addressed most audit findings, the
parties, but the case files and the IRS records        IRS Commissioner stated that Local Taxpayer
did not document the taxpayers’                        Advocates would not be required to report
authorizations to do so. The Taxpayer                  quarterly on actions to address quality
Advocate’s Centralized Quality Review staffs           standards. Also, rather than reinstating the
had also outlined trends in caseworkers not            quality review standard, group managers
meeting quality standards.                             would evaluate, during case reviews,
The Office of Audit further reported that              adherence to the requirements for disclosure
caseworkers had complied with some of the              of taxpayer information to third parties.
quality standards for accuracy, timeliness and
communication. For example, caseworkers had
given taxpayers reasonable due dates for
providing case information and provided the
necessary caseworker identification on
correspondence. When caseworkers needed to


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  22
                                  Semiannual Report to the Congress



The Treasury Inspector General for
                    dates could better protect a taxpayer’s right to
Tax Administration Can Rely Upon
                      a timely response.
Data on the Electronic Disclosure
                     The Office of Audit recommended that IRS
Information Management System for
                     Disclosure management change their current
Its Statutory Review
                                  procedures to require Disclosure personnel to
(Reference No. 2001-10-051)
                           state the actual response date in voluntary
FOIA and I.R.C. Section 6103 are used by               extension letters, instead of the number of
taxpayers to request information from the              additional calendar days they are requesting.
IRS. FOIA requires that records of the                 The exact response date cited in the voluntary
federal government generally be available to           extension letter could then be input to the
the public upon request, unless specifically           E-DIMS as the revised response date.
exempted. Section 6103 regulates the release
                                                       IRS management agreed with the
of tax returns and tax return information to
                                                       recommendation and is taking appropriate
taxpayers or their designees. The IRS uses the
                                                       corrective action.
Electronic Disclosure Information Management
System (E-DIMS) to track written requests for
                                                       The Tax Exempt and Government
information.
                                                       Entities Division Needs to Improve the
RRA 98 requires the Office of Audit to                 Oversight Process for Compliance
perform periodic reviews of the appropriateness        Project Examination Activities
of the IRS’ denials of taxpayers’ written              (Reference No. 2001-10-028)
requests for information on the basis of I.R.C.        The examination selection process for the
Section 6103 or the FOIA exemption (b)(7)10 .          TE/GE Division has been the subject of a
The Office of Audit concluded that it can rely         number of news reports. Many of the reports
on information contained in the E-DIMS                 raised questions on whether the process fairly
when performing its statutory audit. The               selected exempt organizations for
limited audit tests provided reasonable                examination. The TE/GE Division primarily
assurance that selected information on the             uses compliance projects to identify and select
E-DIMS was accurate and complete. For                  cases for examination through a process that
example, the system was 95 percent accurate            researches information on the Returns
for the information the Office of Audit will           Inventory Classification System (RICS).
use when performing its review of denied
requests and 100 percent complete for the              The Office of Audit concluded that the
cases reviewed.                                        TE/GE Division had controls in place to
                                                       effectively administer the process of
However, corrective action is needed to                identifying and selecting exempt organization
ensure that revised response dates are                 returns for examination. However, the TE/GE
accurately input to the E-DIMS. Inaccurate             Division needs to improve compliance with
revised response dates could result in the IRS         its operating procedures that require
not responding to a requester within the time          justification for initiating a project and
period allowed by law. For the audit period,           management approval for examinations. IRS
the Office of Audit estimated that as many as          managers should also ensure that projects are
1,265 cases with voluntary extensions could            consistent with the strategies in the annual
have inaccurate revised response dates on the          work plan. In addition, procedures are needed
E-DIMS. While this issue does not affect the           to ensure that the managers in the Review and
Office of Audit’s reliance on the system, clear        Classification function approve non-examined
guidance on establishing revised response              closures and that the reasons for these actions
                                                       are documented in the case files.
10
     5 U.S.C. Section 552(b)(7) (1996)

                         Treasury Inspector General for Tax Administration
                                          March 31, 2001

                                                  23
                            Semiannual Report to the Congress



IRS management agreed with the audit                  services provided. The IRS has contracted
recommendations and is taking appropriate             with a vendor to survey taxpayers who have
corrective action.                                    had contact with the IRS. As part of the
                                                      survey process, the IRS provides sensitive but
                                                      unclassified Federal Tax Information (FTI),
         Implementing GPRA                            such as taxpayers’ names and addresses, to
                                                      the vendor. In calendar year 1999, the vendor
The Internal Revenue Service Needs to

                                                      received slightly less than one million
Ensure That Its Future Annual

                                                      taxpayer records from the IRS for the surveys.
Program Performance Reports Include

All Requested Information
                            To evaluate the integrity, confidentiality, and
(Reference No. 2001-10-009)
                          security of FTI in possession of the vendor
                                                      and its subcontractors, the Office of Audit
The IRS’ first Annual Program Performance
Report (APPR), issued for FY 1999, met                reviewed security processes that covered
many of the requests contained in various             physical and logical accesses, hiring and
                                                      termination procedures, security awareness,
guidance documents and Congressional
                                                      and contingency planning.
letters. However, the APPR could have
provided more information to ensure that              While the audit found no evidence of
Congressional and executive branch                    improper disclosure of FTI, three security
decision-makers have all of the objective             weaknesses were identified: the vendor and
information needed to assist them in                  subcontractors did not maintain
appropriating and allocating federal funds.           documentation on the security mechanisms
                                                      within their computer systems and did not
Specifically, the IRS should present
                                                      have control measures to determine who
quantitative performance measures for all
                                                      accessed protected information; physical
major management challenges and high-risk
                                                      controls in handling and accounting for
areas, and more complete information on the
                                                      computer diskettes and tapes with FTI needed
summaries of findings and recommendations
                                                      to be improved; and, a security awareness
from program evaluations conducted during
the fiscal year. Also, the IRS did not provide        program was needed to ensure vendor
                                                      employees understood FTI security
a complete assessment of actual performance
                                                      procedures. Also, the IRS had not performed
and its impact on expected future performance
                                                      required evaluations of the safeguard
on almost 80 percent of its performance
                                                      measures employed by the vendor and its
measures.
                                                      subcontractors, and had conducted reviews on
IRS management agreed in general with the             only five percent of all open IRS contracts
first two recommendations. In response to the         involving FTI or other disclosure issues.
third recommendation, management stated the
measures that were baselined, had no targets,         The Office of Audit recommended that the
                                                      IRS develop a process to ensure that on-site
or were classified as “to be determined,” and
                                                      security reviews are conducted, and that
did not need an explanation.
                                                      safeguards are in place and functioning as
                                                      stated in the contract. Also, the IRS should
Federal Tax Information Used by

                                                      evaluate its Office of Safeguards staffing and
Customer Satisfaction Survey

                                                      workload to determine if enough focus is
Contractors Needs to Be Better

                                                      being given to private industry vendors to
Protected

                                                      ensure that sensitive FTI is properly
(Reference No. 2001-10-012)

                                                      safeguarded. IRS management agreed with
The IRS uses customer satisfaction surveys as         the recommendations.
the measurement of taxpayers’ opinions on

                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 24
                             Semiannual Report to the Congress



          Managing Finances                           Letter Report: Attestation Review of

                                                      the Internal Revenue Service’s Fiscal

Controls Over Criminal Investigation
                 Years 1999 and 2000 Office of National

Investigative Imprest Funds Should Be
                Drug Control Policy Accounting

Strengthened
                                         Submissions

(Reference No. 2001-10-040)
                          (Reference No. 2001-10-044)

The Office of Audit reviewed four selected CI         National Drug Control Program agencies are
Imprest Funds and determined that, in                 required to submit to the Director of the
general, the funds were accurately accounted          Office of National Drug Control Policy
for and adequately safeguarded, and related           (ONDCP) a detailed accounting of all funds
fund transactions were authorized, approved,          expended during the previous fiscal year on
and accurately recorded.                              program activities. Further, agency IGs are
                                                      required to authenticate such accounting prior
However, the Office of Audit reported that
                                                      to its submission.
unannounced, independent quarterly account
verifications were not consistently and               The IRS is one of the agencies participating in
properly performed. In addition, the                  this program. The Office of Audit reviewed
authorized dollar amounts for the funds,              the IRS Detailed Accounting Submissions for
totaling $960,000, exceeded actual needs by           FY 1999 and 2000. These submissions,
almost $750,000, which resulted in a potential        including the assertions that the methodology
interest lost of approximately $49,000 per            used is reasonable and accurate, and the
year. Also, 61 percent of the monthly                 obligations presented are associated with a
accountability reports were not timely                financial plan, are the responsibility of the
prepared and submitted.                               IRS.
The Office of Audit recommended that IRS              For FY 1999, the IRS could not provide
management ensure that required quarterly             original documentation supporting total CI
imprest fund verifications are performed              obligations that are extracted from the
consistently and in accordance with IRS               Automated Financial System/Budget
requirements. IRS management should also              Formulation System. The Office of Audit
establish procedures requiring the authorized         was able, however, to obtain other
dollar amounts of imprest funds be                    documentation used in the IRS methodology.
periodically monitored to determine actual            With the exception of the item described
needs, and that oversight reviews be                  above, the auditors did not identify any other
conducted to ensure the timely submission of          item that would cause the Office of Audit to
accountability reports.
                                                      believe that the IRS’ FY 1999 and 2000
IRS management agreed with the                        Detailed Accounting Submission assertions
recommendations.                                      are not presented, in all material respects, in
                                                      accordance with ONDCP-established criteria.
                                                      IRS management agreed with the results of
                                                      this attestation review.




                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 25
                             Semiannual Report to the Congress



Letter Report: Improvements at the                     must spend additional resources to correctly
Lockbox Bank in Atlanta Are Needed                     sort them, which could result in processing
to Better Protect Taxpayer Payments                    delays. From January through April 2000,
and Minimize Processing Costs                          this bank was paid $842,000 to sort over one
(Reference No. 2001-40-048)                            million tax returns.
The IRS lockbox program consists of                    The Office of Audit recommended that the
commercial banks that have contracted to               IRS ensure all required security measures are
process tax payments. This program was                 implemented and enforced and tax returns are
designed to accelerate the deposit of tax              sorted correctly.
payments by having taxpayers send their
                                                       IRS agreed with the recommendations and has
payments to the banks rather than to the IRS.
                                                       initiated corrective actions.
From January through April 2000, the Atlanta
lockbox bank processed over 3.4 million tax
payments totaling over $17 billion and                     Addressing the Impact of the
received over 1 million tax returns.                         Global Economy on Tax
The bank timely deposited all 150 tax                            Administration
payments reviewed by the Office of Audit.
Ninety-nine percent of those payments also             Program Improvements Are Needed to
posted correctly to taxpayers’ accounts.               Encourage Taxpayer Compliance in
While these are significant accomplishments,           Reporting Foreign Sourced Income
opportunities exist to improve bank security           (Reference No. 2001-30-052)
and accurate sorting of tax returns.                   U.S. residents are taxed on their worldwide
The Office of Audit identified several security        income. U.S. residents’ investments abroad
risks at the bank, including: the untimely             have grown significantly in recent years, from
deposit of 14 checks from 12 taxpayers                 $1.3 trillion in 1995 to $2.6 trillion in 1999.
totaling over $5.6 million found by a bank             To assist in identifying income paid to their
manager conducting an unannounced desk                 respective residents, the U.S. and foreign
check; terminated employees who had                    governments routinely exchange information
continued access to the bank computer system           under tax treaties. As part of this program,
for extended periods of time after termination;        the IRS receives paper documents and
two individuals allowed in restricted areas            magnetic tapes listing foreign sourced income
without an identification badge and                    paid to U.S. residents. From 1996 through
unchallenged by security personnel or bank             1998, foreign countries reported over
managers; checks not made payable to or                $260 billion paid to U.S. residents.
stamped with “United States Treasury” (two             Although management has taken some actions
previous thefts from the bank both involved            to address the recommendations in a prior
money orders that were not stamped); and, a            audit report, the IRS is in no better position
bank manager giving a deposit to a bank                today to determine taxpayers’ compliance
courier who did not have proper                        levels in reporting foreign sourced income
identification. Inadequate security over               than it was in 1997. Despite the foreign
personnel, tax returns, and tax payments can           sourced income information provided by tax
lead to embezzlement and/or unauthorized               treaty partners, the IRS’ processes to measure
disclosure of taxpayer information.                    compliance and identify non-compliance are
In addition, bank employees did not correctly          inadequate.
sort 38 percent of the tax returns sampled.
When returns are not properly sorted, the IRS


                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                  26
                             Semiannual Report to the Congress



The IRS could make more effective use of the          The Office of Audit recommended that the
information it receives. For example, some            IRS enhance its program and measure the
documents contain incorrect or insufficient           overall effect of foreign sourced income on
information and are not corrected, preventing         compliance. As part of this effort, the IRS
the identification of the recipients.                 should increase coordination with tax treaty
Additionally, systemic and resource                   partners to better identify recipients of foreign
constraints hamper the IRS from using all             sourced income. Additionally, the IRS should
identifiable documents it receives. Both of           improve its internal systems to make full use
these conditions inhibit compliance efforts on        of the information it receives.
this increasingly important globalization
                                                      IRS management has agreed with the facts
issue.
                                                      and recommendations and has developed a
                                                      plan to implement corrective actions.




                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 27
                              Semiannual Report to the Congress




             Treasury Inspector General for Tax Administration
                          Office of Investigations

INTRODUCTION                                          agents routinely conduct integrity awareness
                                                      presentations for IRS employees and various
The Office of Investigations administers              professional organizations, including local
investigative programs that protect the               law enforcement agencies, tax practitioners,
integrity of the IRS and detect and prevent           and community groups. During this reporting
fraud and other misconduct within IRS                 period, the Office of Investigations conducted
programs. This includes investigating                 514 presentations for 15,568 individuals.
allegations of criminal violations and                Approximately 89 percent of these individuals
administrative misconduct by IRS employees,           were IRS employees.
as well as protecting IRS employees from
                                                      The Office of Investigations conducts
external threats.
                                                      investigations that protect taxpayers from IRS
Specifically, these areas of responsibility           employees who commit criminal violations
include:                                              and administrative misconduct. These
                                                      investigations may involve allegations of
•	 Administering programs to protect IRS              unauthorized access to and disclosure of
   employees from violence.                           confidential taxpayer information, bribery,
•	 Operating a national complaint center,             financial fraud, false statements, and abuse of
   including a hotline, to receive and process        taxpayer rights. During this six-month
   allegations of fraud, waste, or abuse.             reporting period, the Office of Investigations
•	 Providing forensic examination of                  completed 793 employee investigations.
   documentary evidence.                              The Office of Investigations is also committed
•	 Providing technical and investigative              to protecting and supporting IRS employees
   assistance, equipment, training, and other         as they carry out the mission of the IRS.
   specialized services to enhance                    TIGTA investigates individuals who attempt
   investigative operations.                          to interfere with or corrupt the administration
•	 Administering a proactive program to               of the federal income tax system, to include
   detect and deter fraud in IRS programs             investigations of bribery, assault, threat, theft,
   and operations.                                    and embezzlements. During this reporting
                                                      period, the Office of Investigations completed
                                                      1,458 investigations involving these types of
PROTECTION OF TAXPAYERS AND                           allegations.
IRS EMPLOYEES
                                                      When an investigation determines that a
TIGTA is dedicated to ensuring taxpayers and          taxpayer has been financially or procedurally
IRS employees the highest degree of integrity,        harmed by employee misconduct, TIGTA
fairness, and trust in the nation’s tax               notifies the IRS so that appropriate action can
administration system. To heighten                    be taken. TIGTA has notified the IRS on
awareness and provide a deterrent effect              issues such as the unlawful inspection or
against fraud and misconduct, TIGTA special           disclosure of taxpayer returns or return




                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                 29
                                 Semiannual Report to the Congress




information 11 and the embezzlement or theft                TIGTA is dedicated to protecting taxpayers
of tax payments.                                            against abuse and misconduct while also
                                                            ensuring that IRS employees are not subjected
                                                            to unwarranted Section 1203 investigations.
Complaint Management Division
                                                            Investigations are opened on Section 1203
The Complaint Management Division (CMD)                     allegations where it has been determined,
is a centralized clearinghouse for processing               through preliminary analysis, that there is a
and tracking allegations of fraud, waste, and               basis for the allegation. The only exceptions
abuse and other forms of wrongdoing. CMD                    are Sections 1203(b)(8) and (b)(9) which
operates a toll-free telephone number, which                relate to timely and full payment of taxes. In
is advertised both inside and outside the IRS.              most situations the IRS resolves these issues
CMD also receives complaints through an                     fully without a TIGTA investigation.
e-mail address and a central post office box.
                                                            During this reporting period, TIGTA received
CMD’s complaint tracking system provides a
                                                            215 allegations involving potential Section
centralized accounting of all complaints
                                                            1203 violations, and initiated
received by TIGTA and the status and final
                                                            108 investigations. Of these investigations,
dispositions of those complaints. To ensure
                                                            68 are currently ongoing and 40 are closed.
that all complaints received by TIGTA are
                                                            Twenty-four of the 40 closed investigations
acknowledged, complainants are provided
                                                            were referred to the IRS for administrative
with a complaint number. Also, complainants
                                                            adjudication. The referred cases consist of
are provided with a telephone number to
                                                            both substantiated and unfounded Section
contact TIGTA if they want to provide
                                                            1203 allegations. IRS issues clearance letters
additional information regarding their
                                                            to employees where the allegations are
complaint.
                                                            unfounded.
During the reporting period, TIGTA received
                                                            Under Section 1203, the IRS terminated
3,761 complaints. The status of these
                                                            10 employees and mitigated 47 other cases
complaints is shown in Appendix II.
                                                            during this reporting period. Two
                                                            terminations were the result of TIGTA
Section 1203 Violations                                     investigations.
                                                            Internal IRS procedures require the IRS to
Section 1203 of RRA 98 provides for the
                                                            provide TIGTA with a preliminary
mandatory termination of an IRS employee if
                                                            assessment of whether internal procedures
the employee commits specific misconduct
                                                            appear to have been violated in some 1203
violations (see Appendix V for a summary of
                                                            violations. During the reporting period,
Section 1203 standards).
                                                            TIGTA received 102 complaints that were
                                                            referred to the IRS for this type of preliminary
                                                            inquiry.
11
   A provision of the Taxpayer Browsing
Protection Act of 1997, I.R.C. § 7431(e), provides
for notification to taxpayers of the unlawful               Strategic Enforcement Division
inspection or disclosure of their returns and return
information in cases where an IRS employee is               The Strategic Enforcement Division (SED) is
charged criminally for violations of unauthorized           responsible for executing a proactive program
access of disclosure of returns or return                   to detect fraud in IRS operations,
information.

                       Treasury Inspector General for Tax Administration
                                        March 31, 2001

                                                       30
                                 Semiannual Report to the Congress




unauthorized accesses to IRS computer                 computer systems by IRS employees. During
systems by internal users, and attempts to            this reporting period, SED identified and
interfere with the security of IRS computers          analyzed 358 leads of potential unauthorized
by external sources. SED combines the                 accesses using ATLAS and other sources.
talents of auditors, special agents, and              This resulted in 163 referrals to field special
computer programmers into an investigative            agents for investigation of violations of the
team to accomplish its mission.                       Taxpayer Browsing Protection Act of 1997 13.
Recommendations to improve system security
                                                      In addition, investigations of other violations
weaknesses identified during the course of
                                                      identify unauthorized accesses to tax
SED analyses related to internal fraud and
                                                      information. During this reporting period,
UNAX violations are forwarded to the IRS.
                                                      there have been a total of 9 successful
SED also provides extensive investigative and         prosecutions and 95 adverse administrative
forensic data analyses to field special agents        actions against IRS employees involved in
for their investigations. Additionally, SED’s         unauthorized access to taxpayer information.
computer investigative specialists assist             An additional 18 IRS employees resigned
special agents in seizing computers, analyzing        during TIGTA’s investigation.
computer-related evidence, and conducting
                                                      SED provided assistance in a number of
searches on the Internet.
                                                      cases, including:

National Investigative Initiatives                    •	 A former IRS employee was arrested after
                                                         the return of an 11-count indictment of
A principal component of SED’s operation                 unauthorized accesses and disclosure of
involves national investigative initiatives.             tax information. In September 2000, the
These initiatives start with information                 employee pled guilty to 2 counts of the
developed during successful investigations.              11-count indictment. SED identified
The methodology of the crime is used to                  questionable computer accesses to
develop computer database applications that              16 taxpayer accounts. The employee was
will identify other individuals who may be               also the treasurer of an association that
perpetrating the same crime. Computer                    raised money to support residents of a
matching is used in proactive initiatives.               foreign country. The employee allegedly
These initiatives are included in Computer               gathered and recorded income and
Matching Act12 agreements approved by the                personal information on alien taxpayers
Department of the Treasury’s Data Integrity              and publicly bragged about the illegal
Board and published in the Federal Register.             accesses.
There are 7 ongoing initiatives which have                  The employee had been terminated based
resulted in 15 criminal referrals to field                  on a previous TIGTA investigation. In
special agents for investigation.                           December 2000, the employee was
                                                            remanded back to the county jail to serve
UNAX Detection Project                                      one year for violation of parole.
                                                            Following release, the employee is to
The IRS Audit Trail Lead Analysis System                    serve 3 months under house arrest,
(ATLAS) identifies potential unauthorized
accesses to electronic taxpayer information on

12                                                    13
     Pub. L. No. 101-56, 103 Stat. 149 (1989)              Pub. L. No. 105-34, 111 Stat. 1104 (1997)

                        Treasury Inspector General for Tax Administration
                                         March 31, 2001

                                                 31
                              Semiannual Report to the Congress




    3 years probation, and in lieu of a fine,         preservation, and enhancement of evidence.
    was ordered to perform 100 hours of               Technical Services provides audio and video
    community service.                                investigative equipment, and assists special
                                                      agents in using these tools.
•	 In January 2001, a couple pled guilty to a
   21-count indictment of conspiracy, wire
   fraud, and money laundering for                    Forensic Science Laboratory
   operating a credit repair scheme. The
   scheme involved the use of IRS Employer            Criminal investigations often rely on the
   Identification Numbers (EIN) to create             forensic analysis of evidence. The FSL
   new credit files. Analysis of seized               supports field investigations by processing
   business records disclosed that the couple         physical evidence using various techniques
   also operated an illegal credit card               and best practices to identify investigative
   scheme.                                            subjects. These techniques include chemical
                                                      processing and comparison for latent prints,
    The credit repair scheme generated at             handwriting identification, and digital image
    least $81,684 from 2,939 clients. The             enhancement.
    couple charged a fee for information on
    establishing a new credit history. The            During this reporting period, the FSL received
    illegal credit card scheme generated at           114 case submissions and issued 95 reports of
    least $89,257 in fees from 2,641 clients          laboratory examination. The FSL examined
    who thought they were obtaining                   evidence from a number of cases, including:
    unsecured major credit cards. Instead,            •	 In June 2000, two IRS employees were
    clients were mailed a list of financial              charged with embezzling a taxpayer’s
    institutions that offered unsecured credit           remittance check. The funds were
    cards.                                               diverted into one of the employee’s
                                                         personal bank accounts. The two
Technical and Forensic Support                           employees split the proceeds equally.
                                                         TIGTA FSL identified the employee as
Division
                                                         the author of the check endorsement. In
The Technical and Forensic Support Division              September 2000, one of the employees
is responsible for implementing programs                 pled guilty to the charge of embezzlement
concerning Technical Services and the                    and was sentenced to three months
Forensic Science Laboratory (FSL). Each of               probation and ordered to pay restitution of
these programs provides technical expertise              $466. In November 2000, the second
throughout the development and the                       employee was found guilty and is
adjudication process of investigations.                  awaiting sentencing.
                                                      •	 In October 2000, a former IRS employee
Technical Services                                       pled guilty to four counts of altering
                                                         money orders. The IRS employee stole
Technical Services is responsible for                    taxpayers’ remittances, altered, and
providing technical and investigative                    negotiated the money orders. TIGTA
assistance, equipment, training, and other               FSL identified the IRS employee’s
specialized services to enhance TIGTA’s                  fingerprints on two of the money orders.
investigative activities. Technical Services             In January 2001, the employee was
provides crucial support in the collection,              sentenced to 4 months confinement. The

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                 32
                              Semiannual Report to the Congress




    employee will then be placed on 5 years              that each of the accounts accessed involved
    probation. The employee was ordered to               taxpayers that had some personal or business
    pay restitution of $2,300 to the IRS, pay a          involvement with the employee. When
    $400 special assessment, and perform                 interviewed by TIGTA special agents, the IRS
    120 hours of community service.                      employee admitted knowing the taxpayers
                                                         and illegally accessing the accounts to obtain
                                                         personal information about the individuals.
SIGNIFICANT INVESTIGATIONS                               The employee subsequently resigned. In
                                                         January 2001, the IRS employee pled guilty to
Disclosure and Improper Computer                         fraud and related activity in connection with
      Access Investigations                              computers.
The following investigations resulted from
national investigative initiatives (including the        IRS Employee Pled Guilty to
UNAX Detection Project), investigative                   Unauthorized Inspection of Tax Return
strategies involving abuse of IRS computer               Information
systems, and disclosure of confidential                  In December 2000, a former IRS employee
taxpayer records by IRS employees.                       entered a guilty plea to 2 counts of a
                                                         12-count indictment charging unauthorized
Former IRS Employee Indicted for                         inspection of tax return information. The
Unauthorized Computer Accesses                           investigation disclosed accesses to the
In October 2000, a federal grand jury returned           computerized tax accounts of the employee’s
an eight count indictment charging a former              neighbor, in-law, and an employment
IRS employee with unauthorized computer                  reference. These accesses were not in
accesses. The investigation was initiated after          conjunction with the employee’s official
a parent alleged that the employee might have            duties. The employee resigned in lieu of
used confidential IRS records to stalk the               termination. In March 2001, the employee
parent’s teenager. The employee was                      received 3 years probation for each count to
previously prosecuted and convicted of                   run concurrently, 200 hours of community
stalking the teenager. TIGTA’s investigation             service, and was ordered to pay a special
disclosed that the employee accessed the tax             assessment.
accounts of the parents during the time frame
that the teenager was stalked. The                       IRS Employee and Spouse Arrested in
investigation also disclosed that the employee           Credit Card Scheme
accessed the tax account of the employee’s               In January 2001, TIGTA special agents
attorney. The employee accessed the                      arrested an IRS employee and spouse on
attorney’s tax account two days after being              federal charges for misusing a government
notified that the attorney had been granted a            computer in connection with a credit card
civil judgement against the employee for                 fraud scheme. From 1992 to 1997, the spouse
failing to pay attorney fees.                            requested the employee use the IRS’
                                                         computer system to obtain SSN and dates of
IRS Employee Pled Guilty to Illegally                    birth for specific individuals. The employee
Accessing Taxpayer Accounts                              obtained the confidential information for the
SED identified numerous unauthorized                     spouse, who provided the information to third
accesses made to taxpayer accounts by an IRS             parties.
employee. The investigation further revealed

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                    33
                              Semiannual Report to the Congress




The information was used to activate stolen            computer access and preparation of false tax
credit cards or apply for new credit cards in          returns.
the individuals’ names. Subsequently, the
credit cards were used fraudulently. In
February 2001, the IRS employee and spouse
                                                                Bribery Investigations
were indicted for fraud and related activity in
                                                       IRS employees can be targets for bribery due
connection with computers.
                                                       to their frequent contacts with taxpayers.
                                                       Their positions also provide unscrupulous
Former IRS Employee Pled Guilty to
                                                       employees opportunities to extort and solicit
False Statements
                                                       bribes from taxpayers and to conspire with
In October 2000, a former IRS employee was             individuals to threaten the integrity of the tax
sentenced to two years probation after having          administration process.
pled guilty to one count of a false statement.
                                                       Bribery is often a focus of TIGTA’s integrity
The TIGTA investigation was based on
                                                       awareness presentations. These presentations
information that the employee disclosed
                                                       are used as a deterrent to dissuade employees
confidential taxpayer information to an
                                                       from taking inappropriate advantage of their
unauthorized third party. TIGTA determined
                                                       positions. During the presentations,
that the employee mailed a copy of a
                                                       employees are shown how to recognize bribe
taxpayer’s offer-in-compromise letter as a
                                                       overtures and their responsibilities in
means of advertising the employee’s ability to
                                                       reporting bribe attempts.
work with the IRS. The employee admitted to
the disclosure, but claimed it was not                 During this reporting period, the Office of
intentional. Additional information was                Investigations completed 40 bribery
developed that the employee also falsely               investigations.
claimed to be an enrolled agent, a certified
public accountant (CPA), and an attorney on            Former IRS Employee Pled Guilty to
official documents filed with the IRS.                 Accepting Illegal Gratuity
                                                       In November 2000, a former IRS employee
IRS Employee Pled Guilty to Misusing                   was indicted on one count of accepting an
the IRS Computer and Preparing False                   illegal gratuity and two counts of extortion.
Tax Returns                                            The indictment charged that the employee’s
It was reported that an IRS employee illegally         official position was used to coerce a taxpayer
accessed the tax account of a dependent listed         into selling a vehicle at below market value,
on the employee’s federal income tax return.           purchasing another vehicle from the employee
TIGTA determined that the dependent, whose             at above market value, and demanding a $500
account was accessed, was deceased and that            service fee. In February 2001, the employee
the employee illegally claimed dependents on           pled guilty to one count of accepting an illegal
the employee’s tax returns. The employee               gratuity and was ordered to pay $4,500 in
admitted to illegally using the IRS computer           restitution.
files to determine whether a death indicator
appeared on the system for the dependent and           Three Individuals Sentenced for
to illegally claiming dependents on the                Conspiracy and Payment of a Gratuity
employee’s income tax returns. The                     In November 2000, two individuals each pled
employee resigned from the IRS, and in                 guilty to one count of conspiracy to defraud
January 2001, pled guilty to unlawful

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  34
                             Semiannual Report to the Congress




the U.S. government and a third individual             telemarketing network is currently serving a
pled guilty to one count of payment of a               six-year federal prison sentence.
gratuity to a public official. All three
individuals were charged in relation with a            Two Individuals Convicted for
bribery investigation involving a former IRS           Conspiring to Impede and Obstruct an
employee. The three individuals received               IRS Audit
refunds generated from fraudulent income tax           An IRS employee reported that an individual
returns and paid a portion of the refunds as a         had mailed fictitious IRS “Summons
cash gratuity to the employee. The employee            Termination” forms terminating valid IRS
was sentenced to incarceration and restitution.        summonses issued to third party witnesses.
In February 2001, the third individual was             There are no "Summons Termination" forms;
sentenced to three years probation and                 however, the notice bore the IRS seal and
ordered to pay a special assessment. In                contained information which would lead
March 2001, the remaining two individuals              people to believe it came from the IRS. The
each were sentenced to three years probation,          notices were mailed in counterfeit IRS
four months home detention, and were                   envelopes. In addition, threatening letters
ordered to pay a special assessment. All three         were sent to summons recipients and to IRS
individuals were ordered to cooperate with the         employees, warning them to “cease and
IRS regarding the computation and payment              desist” their conduct in connection with the
of their correct tax liabilities.                      IRS audit, as well as other threatening
                                                       statements.
  Theft, Embezzlement and Fraud                        A search warrant was executed at the
           Investigations                              individual’s business that resulted in evidence
                                                       of a co-conspirator. A search warrant was
TIGTA investigates incidents of theft,                 executed on the co-conspirator’s business and
embezzlement, and fraud committed by both              a computer file of the fictitious IRS forms and
internal and external sources. TIGTA also              counterfeit envelopes were seized.
investigates incidents of impersonation where          The individual and co-conspirator were
individuals attempt to defraud taxpayers.              indicted for conspiring to impede and obstruct
                                                       an IRS audit and for counterfeiting the IRS
Four Indicted in Money Laundering                      seal. In addition, the co-conspirator was
Conspiracy                                             indicted for obstruction of grand jury
In February 2001, 4 individuals were indicted          proceedings.
on 39 counts of money laundering. The                  In May 2000, the co-conspirator pled guilty
indictment charged the individuals with                and was subsequently sentenced to 15 months
facilitating the concealment of illegal funds          imprisonment, 3 years supervised release, and
sent by victims of a telemarketing network.            ordered to pay a $4,000 fine. In June 2000,
The victims were elderly persons living                the individual went to trial and was convicted
throughout the U.S. who were contacted by              on 1 count of conspiring to impede and
telephone and convinced they had won large             obstruct an IRS audit and 3 counts of
cash prizes and/or recoveries. The prizes              counterfeiting the IRS seal. In November
were payable upon the victims’ prepayment of           2000, the individual was sentenced to
various fees and alleged taxes, ranging from           15 months imprisonment, 3 years supervised
$2,000 to $20,000. The leader of the


                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  35
                             Semiannual Report to the Congress




release, and ordered to pay a $30,000 fine.           After substantiating the mortgage fraud, a
This matter was investigated jointly by               joint investigation with IRS CI was initiated
TIGTA and IRS CI special agents.                      to pursue a tax investigation against the
                                                      former employee. The tax investigation
Four Individuals Convicted for                        determined that the former employee
Conspiring to Negotiate a Stolen                      understated income on tax returns and several
Check Intended for the IRS                            tax returns were delinquent.
A taxpayer reported that a check for $240,000         During an interview, the former employee
mailed to an IRS lockbox had been stolen and          admitting preparing false tax returns in
counterfeited. An individual admitted                 support of approximately 40 mortgage
depositing the check in a bank account and            applications in collaboration with the
withdrawing $240,000 in cash. After failing           co-conspirator. The former employee also
polygraph examinations, two additional                admitted submitting two fraudulent personal
individuals confessed to their involvement            mortgage applications and filing five false
and cooperated with the investigation. A              personal tax returns. In November 2000, the
seizure warrant was executed and $28,100 in           former employee pled guilty to one count of
cash was seized. An additional $24,000 was            conspiracy to commit bank fraud and one
recovered from one of the individuals.                count of a false income tax return.
During the investigation, three additional
stolen IRS remittance checks totaling $98,000         Four IRS Employees Indicted for
were identified, and a fourth individual was          Conspiracy and Theft
implicated in the conspiracy.
                                                      In January 2001, an IRS employee pled guilty
A federal grand jury indicted the four                in a plea agreement to one count of
individuals for bank fraud, conspiracy to             conspiracy to defraud the U.S. government
launder money, and engaging in monetary               and was ordered to make restitution for the
transactions in property derived from                 thefts of taxpayer remittances. In April 2000,
specified unlawful activity. In addition, one         local police reported to TIGTA that the
of the individuals was indicted for laundering        employee had been arrested on an unrelated
of monetary instruments-concealment. All              incident. During the arrest, an altered check
four individuals pled guilty. In December             and money order originally made payable to
2000 and January 2001, the 4 individuals              the IRS were found in the employee’s
were sentenced to imprisonment ranging from           possession.
8 to 57 months. Each of the four individuals
                                                      The TIGTA investigation found 12 additional
was ordered to pay $240,000 in restitution and
                                                      remittances totaling $16,155. The employee
court costs ranging from $100 to $200.
                                                      stole checks and altered the payee line to the
                                                      name of three co-conspirators, who then
Former IRS Employees Pled Guilty to                   negotiated the check or money order. The
Conspiracy and Tax Fraud
                                                      IRS employee was terminated in April 2000
An investigation determined that a tax                and arrested in November 2000. The three
preparer who was a former IRS employee, in            co-conspirators were also IRS employees.
collaboration with a co-conspirator, prepared
                                                      In June 2000, the U.S. Attorney filed a
fraudulent tax returns in support of 35
                                                      complaint against the first co-conspirator who
mortgage applications. Two of the mortgages
                                                      was arrested, terminated, indicted, and pled
were for the former employee.
                                                      not guilty. In March 2001, in a plea

                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 36
                              Semiannual Report to the Congress




agreement, the first co-conspirator pled guilty         Individual Arrested for Stealing Tax
to three counts of theft and was ordered to pay         Remittance from Lockbox
restitution.
                                                        A taxpayer reported that a tax remittance
In November 2000, the second and third                  submitted to a lockbox had been stolen and
co-conspirators pled not guilty. In March               the check negotiated. An investigation
2001, in a plea agreement, the second co­               disclosed the $450 tax remittance had been
conspirator entered a guilty plea of                    endorsed and cashed by an individual. In
misdemeanor theft, was ordered to pay                   January 2001, the individual was arrested on
restitution, and was terminated in July 2000.           felony forgery charges and was indicted a
The third co-conspirator resigned in April              month later.
2000 and is awaiting trial.
                                                        Former IRS Employee Arrested
In November 2000, all four conspirators were
indicted in a superceding indictment for                In January 2001, a former IRS employee was
conspiracy, theft, and aiding and abetting.             arrested after being indicted on 12 counts of
                                                        submitting false statements, 2 counts of mail
Individual Indicted After Submitting                    fraud, and 1 count of interference with the
Fraudulent Offer in Compromise                          functioning of the IRS. The investigation
                                                        began when the IRS reported that the former
In January 2001, an individual was indicted
                                                        employee’s CPA license had been revoked.
on three counts of bank fraud and one count
                                                        Despite losing the CPA license and IRS
of false statements. A TIGTA investigation
                                                        privileges, the employee continued
confirmed the individual had submitted a
                                                        representing clients before the IRS by posing
fraudulent offer in compromise acceptance
                                                        as another CPA.
letter to a financial institution. The document,
which was allegedly falsified by the
                                                        Individual Changes Plea to Guilty At
individual, purported to clear the individual
                                                        Trial
from a $51,000 IRS liability and contained a
forged signature of an IRS official.                    In March 2000, an individual was indicted
                                                        and pled not guilty to 26 counts of mail fraud.
IRS Employee Terminated and                             The individual advised clients that a portion
Charged Along with Friend for Larceny                   of the money collected had been paid as
of Tax Remittance                                       payroll tax deposits to the IRS. Instead, the
                                                        individual stole approximately $95,700 paid
In January 2001, TIGTA special agents filed a
                                                        by the clients. After the testimony of 8 of the
state criminal complaint charging a former
                                                        government’s 20 witnesses, the individual
IRS employee and a friend with two counts of
                                                        entered a plea of guilty. In November 2000,
larceny each. The employee stole tax
                                                        the individual was sentenced to 24 months
remittances from the employee's workflow.
                                                        incarceration, 3 years supervised release, and
The employee was terminated. In March
                                                        a $2,350 special assessment. In a
2001 the former IRS employee was sentenced
                                                        February 2001 hearing, the individual was
to pretrial diversion and ordered to pay $640
                                                        ordered to pay restitution in the amount of
in restitution.
                                                        $64,040. The individual’s former business
                                                        partner had previously repaid some of the
                                                        clients.



                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                   37
                              Semiannual Report to the Congress




Individual Pled Guilty to an Identity                   application and four other individuals who
Theft Scheme to Defraud the                             were using false identities to illegally obtain
Government                                              products.
In October 1999, an individual used a                   Four of the individuals were indicted for fraud
fictitious state driver’s license and fictitious        and related activity in connection with
IRS identification to open a private mailbox            documents and information and official
address. The investigation revealed that the            certificates or writings. In August 2000, two
individual was involved in numerous schemes             of the four pled guilty to identity theft. In
to defraud the government, which led to a               January 2001, both were sentenced to four
joint investigation involving TIGTA, IRS CI,            months house arrest, three years probation,
the Postal Service, and the Secret Service. In          and $100 in court costs. One individual was
October 2000, a federal grand jury indicted             ordered to pay $4,500 in restitution, and the
the individual on 33 counts of identity theft           other individual was ordered to pay $48,000
and fraud activities. In February 2001, the             in restitution.
individual pled guilty to fraud in connection
                                                        In September 2000 and January 2001, the
with identification documents and access
                                                        third and fourth individuals pled guilty to
devices, false claims, forgery, theft of stolen
                                                        identity theft. In February 2001, the fifth
mail, and laundering of monetary devices.
                                                        individual was indicted and arrested for
The individual is incarcerated on a prior
                                                        identity theft.
indictment and awaits sentencing.
                                                        Individual Pled Guilty To Mail Fraud
IRS Employee Convicted of Grand
Theft for Misuse of Government Credit                   In November 2000, an individual pled guilty
Cards                                                   to one count of mail fraud for providing the
                                                        IRS with several fraudulent forms. TIGTA
In October 1999, it was reported that an IRS
                                                        investigated this matter concurrently with the
employee embezzled $1,192 by misusing
                                                        Defense Criminal Investigative Service. The
government-issued credit cards. When
                                                        individual fraudulently obtained money from
interviewed by TIGTA special agents, the
                                                        several victims by falsely claiming to be a
employee provided a written confession and
                                                        CPA who was authorized to appear before the
resigned in lieu of removal. In
                                                        IRS. Fees paid to this individual ranged from
February 2001, the employee pled guilty to
                                                        $750 to over $2,600.
1 count of grand theft from the IRS, and was
sentenced to 2 years probation, ordered to
                                                        Individual Pled Guilty to Submitting A
perform 45 days of work for the state
                                                        False Levy Release
Department of Transportation, pay $1,192 in
restitution to the U.S. Department of the               In December 2000, an individual was
Treasury, and pay a $100 fine to the court.             sentenced to one year imprisonment, one year
                                                        supervised release, and a special assessment
Four Individuals Pled Guilty to Identity                fine following a guilty plea regarding the
Theft                                                   misuse of Department of the Treasury names
                                                        and symbols. A falsified notice of levy was
An individual purporting to be an IRS
                                                        sent to the individual’s employer to satisfy a
employee fraudulently obtained a sports
                                                        tax liability. The employer, suspicious of the
utility vehicle. The investigation identified
                                                        levy release, contacted TIGTA. Review of
the individual who completed the lease
                                                        the levy release determined it was a

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                   38
                             Semiannual Report to the Congress




fraudulent document. When interviewed, the            $58.3 million in mortgage loan proceeds in
individual admitted to falsifying the levy            connection with the sale and resale of over
notice and providing it to the employer.              170 properties. The object of the conspiracy
                                                      was to obtain mortgages by submitting false
Lockbox Bank Employee Pled Guilty to                  documents that deceived the lenders into
Theft and Mail Fraud                                  providing moneys to unqualified purchasers at
In November 2000, a lockbox bank employee             inflated amounts, which substantially
pled guilty to one count of mail fraud and one        exceeded the true value of the homes. The
count of aiding and abetting the theft and            mortgage files relating to these transactions
embezzlement of an IRS remittance check. In           revealed numerous false items on applications
February 2001, the bank employee was                  and false documents provided to substantiate
sentenced to six months home confinement              down payments and the ability to pay.
with electronic monitoring, five years                In January 2001, one of the individuals pled
supervised probation, a $2,000 fine, and a            guilty to 14 felony counts including
$100 special assessment.                              conspiracy, mortgage fraud, mail fraud, and
The investigation disclosed that the bank             tax evasion. In March 2001, another
employee manipulated the payment process to           individual pled guilty to conspiracy to commit
falsely credit the accounts of friends. The           mortgage fraud and mail fraud.
bank employee prepared and processed false
posting documents and remittances to credit           Two Arrested in Stolen Treasury
$22,339 to these accounts. These payments             Check Scheme
satisfied a friend’s tax liabilities and              In February 2001, arrest warrants were issued
generated tax refunds totaling $8,233. The            for three individuals involved in a scheme to
bank employee received approximately                  cash $180,000 of stolen IRS tax refund
$3,500 of the fraudulent refund proceeds.             checks. These cases originated when an
Approximately six months later, the IRS               individual fraudulently reported that a 1998
reversed the false payments and initiated             refund check had not been received 14
collection actions against the individuals.           months after issuance of the original refund.
                                                      Another individual solicited the assistance of
Nine Individuals and a Business                       a third individual to negotiate the stolen
Indicted in a Scheme to Defraud Banks                 checks. All three individuals received
Out of $58.3 Million                                  compensation for their roles in the scheme.
In December 2000, a federal grand jury                TIGTA and Secret Service special agents and
charged 9 individuals and a business in a             postal inspectors arrested two of the
116-count indictment with conspiracy,                 individuals. The third suspect has not been
mortgage fraud, mail fraud, and operation of a        located.
criminal business. TIGTA joined the multi-
agency investigation when information was             Individual Arrested for Theft of IRS
developed that EINs and tax documents were            Refund Checks
fraudulently used on numerous mortgage                In November 2000, an individual was arrested
applications.                                         by TIGTA for bank fraud in connection with
                                                      the negotiation of over $450,000 in stolen
From July 1994 through January 2000,
                                                      checks. Twenty-one of the stolen checks
individuals conspired to defraud federally
                                                      were IRS tax refund checks totaling $56,087.
insured banks and private lenders in excess of

                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 39
                             Semiannual Report to the Congress




The individual admitted negotiating the               and that the employee subsequently altered
checks. While released on bail under a                the documents to conceal the unauthorized
cooperation agreement with the U.S.                   payments. The employee was removed from
Attorney’s Office, the individual fled and            the IRS. In January 2001, the employee was
remains a fugitive.                                   sentenced to one year incarceration,
                                                      suspended to six months of electronic home
Individual Jailed for Impersonating IRS               detention, and five years probation.
Agent to Locate Ex-Spouse                             Additionally, the employee was ordered to
An individual impersonating an IRS agent              make full restitution, and to pay for the
made a telephone call to a taxpayer                   electronic detention and court costs.
demanding the address and other information
about the taxpayer’s sibling. The taxpayer                   Narcotics Investigations
requested the caller’s IRS identification
number. When the individual refused to                TIGTA investigates incidents involving the
provide the information, the taxpayer declined        illegal sale or purchase of controlled
to provide any information about the sibling.         substances by IRS employees. IRS
The individual threatened to have the taxpayer        employees who abuse narcotics often are
jailed if the information was not provided.           involved in additional criminal activity that
TIGTA was notified and the investigation              undermines the integrity of the IRS. During
                                                      this reporting period, the Office of
determined the individual to be the former
                                                      Investigations completed 39 investigations of
spouse of the sibling. In November 2000, the
individual was indicted by a federal grand            allegations of employee misconduct involving
jury for impersonation. TIGTA special agents          narcotics abuse or trafficking.
arrested the individual. In January 2001,
pursuant to a plea agreement, the individual          IRS Employee and Spouse Arrested for
pled guilty to one count of misuse of the             the Manufacture of a Controlled
Department of the Treasury name or symbol.            Substance
The individual was sentenced to one year of           On five occasions, an IRS employee sold
probation, mental counseling, and no contact          approximately one pound of marijuana on IRS
with the victim. The individual also was              property. In January 2001, TIGTA and Drug
fined $1,000 and ordered to pay a court fee.          Enforcement Agency special agents,
                                                      accompanied by a local police officer,
IRS Employee Pled Guilty to Theft of                  executed two federal search warrants on the
Government Property                                   employee’s residence and personal vehicle.
                                                      During the search, approximately
In October 2000, an IRS employee pled guilty
                                                      26 marijuana plants were seized along with
to falsely claiming overtime and holiday pay
                                                      one pound of marijuana and the equipment
over a three-year period. The false claims
totaled $32,547 in payments to the employee.          used to grow it. The employee and the
It was reported that a review of the                  employee’s spouse were subsequently
employee’s time sheets showed a discrepancy           arrested on state charges of the manufacture
between what was reported and what was                of a controlled substance.
actually worked. An investigation determined
that the employee forged authorizing
signatures on payroll and overtime documents


                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 40
                              Semiannual Report to the Congress




  Threat, Assault, and Harassment                      The investigation determined that the
           Investigations                              individual is an active member of two anti-
                                                       government extremist groups that advocate
IRS employees face a difficult and                     non-compliance with all state and federal
challenging mission in serving taxpayers.              authorities and promoted the fraudulent
While incidents and threats of violence and            redemption scheme. This case expanded into
harassment are rare, sometimes individuals do          a multi-agency investigation that included
resort to violent acts. The Office of                  IRS CI, Bureau of Alcohol, Tobacco and
Investigations considers responding to and             Firearms, the Park Service, and a state police
investigating threats and assaults against IRS         agency.
employees one of its highest priorities. This
Office also investigates incidents of                  Workplace Violence Averted
harassment by individuals who attempt to
undermine IRS employees as they carry out              An IRS employee was convicted of
their duties. During this six-month period, the        possessing a firearm in a federal facility.
Office of Investigations completed 271 threat,         TIGTA initiated an investigation based on an
assault or harassment investigations. The              allegation that a possible violent workplace
Office of Investigations also investigates             situation existed when a furloughed IRS
alleged misconduct by IRS employees                    employee returned to work. It was reported
involving sexual battery and inappropriate             that the employee purchased a gun for
behavior.                                              protection from the furloughed co-worker.
                                                       Initially, the employee denied having the
Individual Charged After Attempting to                 weapon and stated the relationship with the
Harass and Intimidate IRS Employees                    furloughed co-worker was good.
In January 2001, a federal grand jury returned         During a consent search of the employee’s
a multi-count indictment charging an                   workspace, a loaded automatic handgun was
individual with fraudulent financial                   found. The employee subsequently admitted
instruments, bankruptcy fraud, fraud and false         to being fearful of the furloughed co-worker.
statements, and felon in possession of a               In October 2000, the employee resigned. In
firearm. TIGTA initiated an investigation              February 2001, the employee pled guilty to
after an IRS employee reported receiving a             possessing a firearm in a federal facility and
copy of a fraudulent CTR in the employee’s             was fined $400 and ordered to pay a special
name.                                                  assessment.
The investigation determined that the
individual filed 105 fraudulent CTRs in the            Individual Convicted of Threatening
names of current and former IRS employees,             TIGTA Special Agent
U.S. federal judges, U.S. attorneys, local law         In February 2001, an individual was found
enforcement officials, and private citizens.           guilty of threatening to assault a TIGTA
The forms alleged multi-million dollar cash            special agent in the performance of the
transactions with these individuals. The               agent’s duties. There was a history of
investigation also revealed that the individual        contacting various IRS officials to discuss
presented several fraudulent Bills of                  perceived problems with the individual’s
Exchange to various government agencies to             taxes or the taxes of others. The individual
satisfy outstanding debts.                             called IRS offices up to 10 times a day
                                                       harassing and threatening lawsuits. Because

                     Treasury Inspector General for Tax Administration
                                      March 31, 2001

                                                  41
                             Semiannual Report to the Congress




of the extensive and harassing nature of the          agent and IRS general investigator, who came
calls, they were eventually diverted to               to the assistance of the deputy. The inmate
TIGTA. When this occurred, the individual             entered a TIGTA office and engaged in a
threatened to assault the special agent               violent struggle with the deputy. The TIGTA
assigned to answer the calls.                         special agent heard the struggle and came to
                                                      the assistance of the deputy. While assisting
Inmate Indicted for Assaulting TIGTA                  the deputy, the inmate bit the special agent
Special Agent and IRS General                         and sprayed the special agent in the eyes with
Investigator                                          oleoresin capsicum spray that the inmate
In December 2000, a federal grand jury                wrestled from the deputy. The inmate also
indicted a county detention facility inmate on        sprayed the general investigator who assisted
three counts of assaulting federal officers.          in the apprehension. The inmate had been in
The indictment charged that the inmate, while         a local detention facility awaiting trial for
                                                      other alleged crimes.
attempting to escape custody of a county
sheriff’s deputy, assaulted a TIGTA special




                    Treasury Inspector General for Tax Administration
                                     March 31, 2001

                                                 42
                                            Semiannual Report to the Congress


                                                                                                     Appendix I
                                                                     Statistical Reports for the Office of Audit

                                      Audit Reports With Questioned Costs

         Two audit reports with questioned costs were issued during this semiannual reporting period.
         The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of
         a provision of a law, regulation, contract, or other requirement governing the expenditure of
         funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
         documentation (“unsupported cost”); or (3) a finding that expenditure of funds for the intended
         purpose is unnecessary or unreasonable. The term “disallowed cost” means a questioned cost that
         management, in a management decision, has sustained or agreed should not be charged to the
         government.

         Reports With Questioned Costs                  Number
                                                                         Questioned Costs 2   Unsupported Costs
                    (10/1/00 - 3/31/01)                    of
                                                                          (In Thousands)       (In Thousands)
    Report Category                                     Reports 1
    1.     For which no management decision had
           been made by the beginning of the
           reporting period.                                  0                           0                    0


    2.     Which were issued during the reporting
           period.                                            1                         $28                  $27

    3.     Subtotals (Item 1 plus Item 2)                     1                         $28                  $27
    4.     For which a management decision was
           made during the reporting period.                  0                           0                        0
           -   Dollar value of disallowed costs               0                           0                        0
           -   Dollar value of costs not disallowed           0                           0                        0

    5.     For which no management decision had
           been made by the end of the reporting
           period. (Item 3 minus Item 4)                      1                         $28                   $27


    6.     For which no management decision was
           made within six months of report                   0                           0                    0
           issuance.

1
    See Appendix IV for identification of audit reports involved.
2
    “Questioned Costs” include “Unsupported Costs.”




                               Treasury Inspector General for Tax Administration
                                                March 31, 2001

                                                                    43
                                      Semiannual Report to the Congress


                                                                                                   Appendix I
                                                                   Statistical Reports for the Office of Audit

 Audit Reports With Additional Quantifiable Impact on Tax Administration


Two audit reports with recommendations that funds be put to better use were issued during this
semiannual reporting period.
The term “recommendation that funds be put to better use” means a recommendation that funds
could be used more efficiently if management took actions to implement and complete the
recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs
or operations; (3) costs not incurred by implementing recommended improvements related to
operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract
agreements; or (5) any other savings which are specifically identified. The term “management
decision” means the evaluation by management of the findings and recommendations included in
an audit report and the issuance of a final decision concerning its response to such findings and
recommendations, including actions concluded to be necessary.

      Reports With Recommendations That Funds Be Put to Better Use
                                                                                 Number
                          (10/1/00 - 3/31/01)                                                    Amount
                                                                                    of
                                                                                             (In Thousands)
  Report Category                                                                Reports1

  1.      For which no management decision has been made by the beginning
          of the reporting period.                                                  2                  $9,186

  2.      Which were issued during the reporting period.                            2                    $158
  3.      Subtotals (Item 1 plus Item 2)                                            4                  $9,344
  4.      For which a management decision was made during the reporting
                                                                                    3                  $9,235
          period.
         Dollar value of recommendations that were agreed to by
          management                                                                2                  $8,376
          -    Based on proposed management action
                                                                                    2                  $8,376
          -    Based on proposed legislative action
                                                                                    0                         $0
         Dollar value of recommendations that were not agreed to by
          management                                                                1                    $859

  5.      For which no management decision has been made by the end of the
          reporting period. (Item 3 minus Item 4)                                   1                    $109

  6.      For which no management decision was made within six months of
          issuance.                                                                 0                          0


  1
       See Appendix IV for identification of audit reports involved.




                          Treasury Inspector General for Tax Administration
                                           March 31, 2001

                                                                44
                             Semiannual Report to the Congress


                                                                                     Appendix I
                                                     Statistical Reports for the Office of Audit

 Audit Reports With Additional Quantifiable Impact on Tax Administration

In addition to questioned costs and funds put to better use, the Office of Audit has identified
additional measures that demonstrate the value of audit recommendations on tax administration
and business operations. These issues are of interest to the IRS and Treasury executives, the
Congress, and the taxpaying public, and are expressed in quantifiable terms to provide further
insights to the value and potential impact of the Office of Audit’s products and services.
Including this information also advances adherence to the intent and spirit of GPRA.
Definitions of these additional measures are:
1.	 Taxpayer Rights and Entitlements at Risk: The protection of due process
    (rights) that is granted to taxpayers by law, regulation, or IRS policies and
    procedures. These rights most commonly arise in the performance of filing tax
    returns, paying delinquent taxes, and examining the accuracy of tax liabilities. The
    acceptance of claims for and issuance of refunds (entitlements) are also included in
    this category, relating to instances when taxpayers have a legitimate assertion to
    overpayments of tax.
2.	 Reduction of Burden on Taxpayers: Decreases by individuals or businesses in
    the need for, frequency of, or time spent on contacts, record keeping, preparation, or
    costs to comply with tax laws, regulations, and IRS policies and procedures.
3.	 Increased Revenue or Revenue Protected: Assessment or collection of additional
    taxes (increased revenue), or proper denial of claims for refund, including
    recommendations that prevent erroneous refunds or efforts to defraud the tax system
    (revenue protection).
4.	 Taxpayer Privacy and Security: Protection of taxpayer financial and account
    information (privacy). Processes and programs that provide protection of tax
    administration, account information, and organizational assets (security).
5.	 Protection of Resources: Safeguarding human and capital assets, used by or in the
    custody of the organization, from inadvertent or malicious injury, theft, destruction,
    loss, misuse, overpayment, or degradation. This measure will often be expressed as
    a value of the entity or program affected by the issue(s) described in the audit
    report.
6.	 Reliability of Management Information: Ensuring the accuracy, validity,
    relevance, and integrity of data, including the sources of data and the applications
    and processing thereof, used by the organization to plan, monitor, and report on its
    financial and operational activities. This measure will often be expressed as an
    absolute value (i.e., without regard to whether a number is positive or negative) of
    overstatements or understatements of amounts recorded on the organization’s
    documents or systems.




                    Treasury Inspector General for Tax Administration
                                     March 31, 2001
                                                   45
                                  Semiannual Report to the Congress


                                                                                             Appendix I
                                                             Statistical Reports for the Office of Audit

     Audit Reports With Additional Quantifiable Impact on Tax Administration

The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or
subsequent business activities applicable from the dates of implementation. Also, a report may
have issues that impact more than one outcome measure category.


Reports With Additional Quantifiable
   Impact on Tax Administration              Number
                                                of             Number of       Number
         (10/1/00 - 3/31/01)                                   Taxpayer                     Dollar Value
                                              Reports                            of                              Other2
                                                in             Accounts         Hours      (In Thousands)
Outcome Measure Category                     Category1

1.    Taxpayer Rights and Entitlements at        3                 13,6843                         $25,000
      Risk
                                                                                                                           4
2.    Reduction of Burden on Taxpayers           2                      59

3.    Increased Revenue or Revenue               4                 515,427                       $409,8325
      Protected
4.    Taxpayer Privacy and Security              0


5.    Protection of Resources                    0

                                                                                                                           6
6.    Reliability of Management                  1
      Information

Explanatory Notes
1
  See Appendix IV for identification of audit reports involved.
2
  Some reports contained "Other" quantifiable impacts besides the number of taxpayer accounts, number of hours, and
  dollar value. These outcome measures are described in the footnotes, below.
3
   For one report (2001-40-030), IRS management did not agree with the number of taxpayers affected by not properly
  reversing the recertification indicator. IRS identified 1,646 such instances, while TIGTA identified 11,400 instances.
4
   Another measure of burden reduction consisted of 9.6 million taxpayer calls to Customer Service that were not
  answered.
5
   For one report (2001-30-063), IRS management agreed with the finding, but disagreed with TIGTA’s revenue projection
  of $21.8 million.
6
  Other reliability of management information measures consist of an overstatement of 1,015 Earned Income Credit cases
  and 155,000 notices on reports provided to the Congress.




                       Treasury Inspector General for Tax Administration
                                        March 31, 2001
                                                          46
                                 Semiannual Report to the Congress


                                                                                         Appendix II
                                                 Statistical Reports for the Office of Investigations


                                      Investigative Results
                                 October 1, 2000 - March 31, 2001



                                   Investigations Opened and Closed


Total Investigations Opened                                                                     2440



Total Investigations Closed                                                                     2251




                                       Financial Accomplishments


Embezzlement/Theft Funds Recovered                                                          $609,386



Court Ordered Fines, Penalties and Restitution                                             $7,717,394



Out-of-Court Settlements                                                                          $0




                      Treasury Inspector General for Tax Administration
                                       March 31, 2001
                                                       47
                                     Semiannual Report to the Congress


                                                                                             Appendix II
                                                     Statistical Reports for the Office of Investigations


                                  Status of Closed Criminal Investigations


                                                           Employee              Non-Employee                 TOTAL



Criminal Referrals 1

     Referred – Accepted for Prosecution                       28                       122                      150

     Referred – Declined for Prosecution                      294                       364                      658

     Referred - Pending Prosecution Decision                   44                       117                      161

Total Criminal Referrals                                      366                       603                      969

No Referrals                                                  709                       613                     1322




                                               Criminal Dispositions 2

                                                           Employee             Non-Employee                  TOTAL


 Guilty                                                        19                      58                        77

 Nolo-Contendere                                                0                       0                         0

 Pre-trial Diversion                                            2                      13                        15

 Deferred Prosecution3                                          0                       1                         1

 Not Guilty                                                     1                       1                         2

 Dismissed4                                                     1                      14                        15

 TOTAL CRIMINAL DISPOSITIONS                                   23                      87                       110

 1
   Criminal referrals include both federal and state dispositions.
 2
   Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
   reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
   Investigations table.
 3
   Generally, in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
   conditions imposed by the court. Upon defendant's completion of the conditions, the court dismisses the case. If the
   defendant fails to fully comply, the court reinstates prosecution of the charge.
 4
   Court dismissed charges.




                           Treasury Inspector General for Tax Administration
                                            March 31, 2001
                                                               48
                                      Semiannual Report to the Congress


                                                                                              Appendix II
                                                      Statistical Reports for the Office of Investigations


           Administrative Status and Disposition on Closed TIGTA Investigations 1


Removed, Terminated or Other                                                                                    137

Suspended/Reduction in Grade                                                                                    44

Oral or Written Reprimand/Admonishment                                                                          129

Closed – No Action Taken                                                                                        194

Clearance Letter Issued                                                                                         100

Employee Resigned Prior to Adjudication                                                                         39



TOTAL ADMINISTRATIVE DISPOSITIONS                                                                               643
1
    Final administrative dispositions during the reporting period. This data may pertain to investigations referred
    administratively in prior reporting periods and does not necessarily relate to the investigations closed in the
    Investigations Open and Closed table.




                           Treasury Inspector General for Tax Administration
                                            March 31, 2001
                                                               49
                                 Semiannual Report to the Congress


                                                                                           Appendix II
                                                   Statistical Reports for the Office of Investigations


The following tables summarize the number of complaints received by TIGTA and the status of
the complaints.


                            Complaints/Allegations Received by TIGTA


               Number of Complaints/Allegations                                         3,761

                         Complaints Against IRS Employees                                1,521

                         Complaints Against Non-Employees                                2,240




                     Status of Complaints/Allegations Received by TIGTA


               Status of Complaints

                         Investigation Initiated                                         1,829

                         In Process Within TIGTA1                                        232

                         Referred to the IRS for Action                                  316

                         Referred to the IRS for Information Only                        607

                         Referred to a Non-IRS Entity2                                    30

                         Closed With No Referral                                         747

               TOTAL COMPLAINTS                                                          3,761


          1
              Complaints for which final determination had not been made at the end of the reporting period.
          2
              A non-IRS entity includes other law enforcement entities or federal agencies.

              NOTE: IRS made 91 referrals to TIGTA that would more appropriately be handled by the IRS
                     and, therefore, were returned to the IRS and are not included in the Total Complaints
                     shown above.




                      Treasury Inspector General for Tax Administration
                                       March 31, 2001
                                                          50
                                    Semiannual Report to the Congress


                                                                                           Appendix II
                                                   Statistical Reports for the Office of Investigations

The following two tables consist of allegations of misconduct against individual IRS employees that were
recorded in the IRS Automated Labor and Employee Relations Tracking System (ALERTS). Employee
misconduct cases investigated by TIGTA have been extracted and reported on the previous two pages. IRS
management conducted the inquiries into the cases reflected in these tables.

                Allegations of Employee Misconduct Investigated by IRS Management

                                                                              Case Type

                                                                             Employee Tax
                                                  Administrative 1             Matter 2                    Total
Inventory on October 1, 2000                          1,323                     1,240                      2,563

Add: Cases Received                                     3,064                     1,607                    4,671

Less: Cases Closed                                     (2,929)                   (1,539)                  (4,468)

Duplicates                                               (39)                     (146)                     (185)

Not Misconduct                                           (57)                       0                       (57)

Total Closures                                         (3,025)                   (1,685)                  (4,710)

Inventory on March 31, 2001                             1,362                     1,162                    2,524



1
    Administrative - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
2
    Employee Tax Matter - Any matter involving an employee's tax compliance which becomes a matter of official interest.


            Disposition of Employee Misconduct Cases Investigated by IRS Management

                                                                            Employee Tax
                   Disposition                      Administrative            Matter                        Total
Removal                                                  64                       9                           73
Separation of Probationary Employees                    482                      14                          496
Separation of Temporary Employees                        32                      19                           51
Resignation/Retirement                                  208                     115                          323
Suspensions                                              97                      80                          177
Reprimands                                              171                     216                          387
Counseling                                              789                     772                         1,561
Alternative Discipline                                   40                      29                           69
Clearance                                               116                      14                          130
Closed Without Action                                   809                     227                         1,036
Forwarded to TIGTA                                       23                       0                           23
Not Otherwise Coded                                      98                      44                          142
Total                                                  2,929                   1,539                        4,468




                         Treasury Inspector General for Tax Administration
                                          March 31, 2001
                                                            51
                               Semiannual Report to the Congress


                                                                                          Appendix III
                                                                            Statistical Reports – Other

       Audit Reports With Significant Unimplemented Corrective Actions

The Inspector General Act of 1978 requires identification of significant recommendations
described in previous semiannual reports on which corrective actions have not been completed.
The following list is based on information from the IRS Office of Management Control’s
automated tracking system maintained by Treasury management officials.

(F = Finding Number, R = Recommendation Number, P = Plan Number)

  Reference
   Number          Issued        Report Title and Recommendation Summary

   041403       January 1994     Review of the Nonresident Alien Information Documents
                                 F-1, R-2, P-1. Management should ensure that obvious noncompliance with
                                 applicable tax laws and regulations be identified during processing.
   061610       January 1996     IRS’ Efforts in Monitoring Trust Fund Recovery Penalty Assessments Need
                                 Improvement
                                 F-2, R-3, P-1. IRS should automate the processing of adjustments resulting
                                 from payments or credits on related Trust Fund Recovery accounts, as part of
                                 the IRS’ modernization efforts.
   060402       January 1996     Review of the Early Intervention Contact Processing
                                 F-2, R-1, P-2. Early Intervention should consider alternate methods to obtain
                                 the most current taxpayer locator information.
   064008        June 1996       The Financial Accounting and Reporting of Collection’s Seized Assets Could
                                 Be Improved
                                 F-2, R-1, P-4. Management should incorporate a systemic interface between
                                 the Automated Work Control System seizure module and the general ledger as
                                 part of the Revenue Accounting Control System replacement.
   065503       August 1996      Review of the Employment Tax Nonfiler Program
                                 F-2, R-3, P-1. Establish a Form W-2/Business Masterfile cross-check of
                                 Employer Identification Numbers that appear on Forms W-2 attached to
                                 electronically filed Forms 1040. Establish employment tax filing requirements
                                 for those Employer Identification Numbers that match an existing Business
                                 Masterfile account if the account does not have a filing requirement and does
                                 not contain a subsidiary indicator.
   066401      September 1996    Follow-up Review of Information Security Over Small Scale Computer Systems
                                 F-1, R-1, P-24. Require Regional Commissioners to conduct another
                                 self-assessment and certification of systems, to be followed by a validation.
   071304        March 1997      Quality of Information Document Processing
                                 F-1, R-1, P-3. Review IRS reports (Martinsburg Computing Center
                                 Report 405-02-12) to determine whether large variances exist between
                                 processing years in the volume and dollars of information documents.
   072208        April 1997      Review of Service Efforts to Ensure Compliance of Taxpayers Receiving
                                 Foreign Sourced Income
                                 F-2, R-1, P-1. The Service should commit to the development of a system to
                                 process foreign information records received magnetically in the standard
                                 Organization for Economic Cooperation and Development format.
   072303        April 1997      A Review of Cyberfile
                                 F-1, R-2, P-1. To reduce the chance of a recurrence of the types of problems
                                 that impacted Cyberfile’s development, management should ensure that IRS
                                 guidelines are strengthened to specify project management procedures
                                 regarding tracking funds paid to vendors for services and vendor
                                 purchases/leases of IRS-funded equipment.



                   Treasury Inspector General for Tax Administration
                                    March 31, 2001
                                                     53
                           Semiannual Report to the Congress


                                                                                      Appendix III
                                                                        Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number        Issued        Report Title and Recommendation Summary

 073804       July 1997      Review of the Inventory Delivery System Development
                             F-2, R-4, P-1. The Service should review and update the sampling plan to
                             ensure it includes criteria for the evaluation of each sampled account within a
                             sub-group to ensure consistency.
                             F-2, R-6, P-1. The results of the Self-Monitoring Program should be included
                             as one of the factors for determining whether and when Inventory Delivery
                             System features should be scheduled for national implementation.
 075404     September 1997   Review of the Office of Disclosure
                             F-3, R-3, P-2. The Office of Disclosure should take appropriate measures to
                             ensure sensitive data maintained on the inventory control system is properly
                             protected. The system should meet C-2 requirements and provide an adequate
                             audit trail to monitor user activity on the database.
 081004     December 1997    Taxpayer Walk-In Program for the 1997 Filing Season
                             F-2, R-1, P-2. Develop a customer-based strategy and a related program with
                             applicable goals and measures to evaluate performance of the Walk-In
                             Program.
 083008       April 1998     Review of the Service’s Electronic Federal Tax Payment System
                             Implementation and Enhancements
                             F-4, R-2, P-1. IRS management should provide a process for electronic
                             submission of authorization data to eliminate manual transcription.
 083322       May 1998       Math Error Processing for Revenue Protection Issues
                             F-10, R-1, P-1. Include an informal checklist in the Revenue Protection
                             Strategy math error notices listing the information taxpayers should provide
                             when writing or calling the IRS.
 085812     September 1998   Readiness for Service Center Mainframe Consolidation
                             F-2, R-1, P-1. Unless assurances can be made that experienced IRS personnel
                             can be relocated when and where needed, IRS management should develop a
                             contingency plan to provide the needed staffing for critical positions at all
                             affected sites.
 091903     December 1998    Executive Compilation and Interpretation of the 1998 Filing Season
                             F-2, R-1, P-1. To simplify return filing, the IRS should improve the process
                             used to evaluate the burden placed upon taxpayers by the various tax laws and
                             publications.
 093602       April 1999     The Internal Revenue Service Needs To Improve Treatment of Taxpayers
                             During Office Audits
                             F-1, R-3, P-2. Require a separation of duties among auditors who identify
                             Midwest Automated Compliance System (MACS) returns with potential tax
                             changes, auditors who select MACS returns to be audited, and auditors who
                             conduct the examinations.
                             F-1, R-4, P-2. Ensure that all MACS data discs forwarded from the MACS
                             Development Center to district offices are properly accounted for and secured.
                             F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide specific
                             guidance for conducting correspondence audits in district office settings.
 094206       May 1999       The Examination Returns Control and Integrated Data Retrieval Systems Can
                             Be Improved to Protect Taxpayer Rights During the Audit Process
                             F-3, R-1, P-2. The Assistant Commissioner (Examination), with input from the
                             Chief Information Officer (CIO), should ensure the issues are addressed to
                             enable the Examination Returns Control System audit trail to be used to its
                             fullest extent.


                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                 54
                         Semiannual Report to the Congress


                                                                                      Appendix III
                                                                        Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number       Issued       Report Title and Recommendation Summary

 093009      June 1999     Review of the Electronic Fraud Detection System
                           F-1, R-2, P-2. Initial and periodic password changes should be systemically
                           enforced for the Electronic Fraud Detection System (EFDS) application
                           program.
                           F-1, R-3, P-2. Workstation terminals should be disabled after a selected
                           number of failed login attempts to the EFDS application program.
                           F-1, R-4, P-2. Password change information should be part of the EFDS
                           application audit trail.
                           F-2, R-1, P-2. Program the EFDS application trail to record all accesses to
                           taxpayer data.
                           F-2, R-2, P-2. Design an audit trail application to record accesses to taxpayer
                           data through secondary sources such as the database administrator, system
                           query tools, or contract vendors.
                           F-3, R-1, P-2. The EFDS Project Office should work with EFDS developers to
                           ensure that the following programming changes are made. The EFDS
                           application audit reports should be changed to include a date range field and
                           service center site field where applicable.
                           F-3, R-4, P-2. The Chief Information Officer (CIO) should complete this
                           assessment, taking into consideration the audit trail issues referred to in this
                           Memorandum of Understanding to improve the usefulness of the EFDS
                           application audit trail.
                           F-3, R-5, P-2. Because of the sensitivity of the data maintained on the EFDS,
                           and the number of people who have access to the system (with more planned in
                           the future), the audit trail problems referred to in the report should be included
                           by the IRS as a Federal Managers’ Financial Integrity Act material weakness.
                           F-5, R-2, P-1. EFDS will soon undergo a new security certification. Taking
                           into account the audit trail and documentation issues discussed in this report, it
                           is questionable whether EFDS should have received its prior security
                           certification. In the upcoming certification process, Information Systems
                           should ensure that the issues discussed in this report are corrected, and that all
                           other controls necessary for a proper certification are in place and functioning.




               Treasury Inspector General for Tax Administration
                                March 31, 2001
                                                55
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number        Issued        Report Title and Recommendation Summary

199920063    August 1999     The General Controls Environment Over the Internal Revenue Service’s
                             Unisys 2200 Systems Can Be Improved
                             F-2, R-1, P-1. The Chief Information Officer (CIO) should standardize control
                             settings for files common to the Unisys 2200 production mainframes.
                             F-3, R-1, P-1. The CIO should ensure all improperly owned files are identified
                             and assigned an owner present on the Unisys 2200 system at each service
                             center, with the exception of files required to be unowned, prior to movement
                             of that service center’s mainframe to the consolidated Unisys 4800
                             environment.
                             F-3, R-2, P-2, P-3, P-5, P-6. The CIO should institute a policy requiring that
                             all files owned by users being removed from the Unisys 2200 and Unisys 4800
                             systems either be deleted or assigned to a user present on the system.
                             F-4, R-1, P-1. The CIO should examine the possibility of tracking individual
                             user actions while using the MASTER user-id on the Unisys 4800 system and,
                             if possible, implement this feature as soon as feasible.
                             F-6, R-1, P-1. The CIO should ensure that all required C-2 documentation is
                             prepared for the Unisys 4800.
                             F-6, R-2, P-1. The CIO should develop and maintain a security policy for the
                             Unisys 4800.
                             F-6, R-3, P-1. The CIO should conduct and document an assessment of the
                             risk factors for the Unisys 4800.
199910072   September 1999   The Internal Revenue Service Needs to Improve Compliance With Legal and
                             Internal Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
                             F-2, R-3, P-1, P-2, P-3. Ensure that Collection management and other
                             appropriate management officials verify that all applicable items on the
                             pre-seizure checklist are completed prior to approving the seizure and that all
                             applicable items on the seizure and post-seizure checklists under development
                             are completed.
199920068   September 1999   The Service Center Mainframe Consolidation Project Has Made Significant
                             Progress, But Project Execution and Administration Risks Remain
                             F-2, R-3, P-1. IRS management should ensure that proper procedures are
                             followed. The Service Center Mainframe Consolidation Project Office should
                             establish full-time Government Task Managers and support staff on-site to
                             monitor and verify deliveries, hours worked by the contractor, and travel taken
                             by the contractor.
199940057   September 1999   Controls Should Be Strengthened Over Business Taxpayer Accounts With
                             Frozen Million Dollar Refunds
                             F-1, R-1, P-1. Modify the “Million Dollar Refund Freeze” indicator program
                             in the IRS’ computer system to provide the option to release business taxpayer
                             account credit balances plus computed interest that total less than $1 million
                             (i.e., when the refund due drops below $1 million at any point in time).
                             F-4, R-1, P-1. Enhance current Internal Revenue Manual procedures to
                             identify and expedite the resolution of a “Million Dollar Refund Freeze.”




                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                 56
                              Semiannual Report to the Congress


                                                                                           Appendix III
                                                                             Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number          Issued         Report Title and Recommendation Summary

2000-20-004   October 1999      The Internal Revenue Service Needs to Encourage Taxpayer Use, Improve
                                Customer Service, and Enhance Computer Controls of the 941 TeleFile
                                Program
                                F-2, R-2, P-1. The IRS should provide additional wording to the CP-136
                                notice to advise taxpayers they are no longer eligible to use the 941 TeleFile
                                Program and to advise them of other electronic alternatives for filing their
                                returns, such as Electronic Filing.
                                F-3, R- 2, P-1. The IRS should require taxpayers to be in business for the
                                entire look-back period to be eligible to participate in the 941 TeleFile
                                Program.
2000-30-015   December 1999     Consolidated Report on Opportunities for the Internal Revenue Service to
                                Improve Service to Business Taxpayers
                                F-2, R-1, P-1. Expand the current Federal Tax Deposits alert reengineering
                                effort to re-evaluate the cost effectiveness of the Program.
                                F-3, R-1, P-1. Move toward centralized processing of business returns in two
                                locations.
2000-10-028   February 2000     Cost Savings Can Be Achieved Through Improved Monitoring of the Treasury
                                Communications System Contract
                                F-1, R-2, P-1. To facilitate the review process, Procurement and Information
                                Systems management should request that the Treasury Communications
                                System Program Management Office work with the contractor to create an
                                invoice that is easier to verify.
                                F-2, R-1, P-1. Information Systems management should work with the
                                contractor to determine realistic estimates on future service requests.
2000-10-033   February 2000     The Internal Revenue Service Can Further Reduce the Burden on Taxpayers
                                Who Disagree With Proposed Assessments
                                F-1, R-1, P-1. Send letters of proposed changes (30-Day Report) via certified
                                mail, with return receipt requested, when taxpayers do not respond to the initial
                                contact letter.
                                F-2, R-1, P-3. Ensure future management and quality reviews include
                                evaluating whether office audit groups are adhering to correspondence
                                procedures.
2000-10-047    March 2000       The Internal Revenue Service Needs to Strengthen Its Operating Controls for
                                the Tax-Exempt Bond Program
                                F-1, R-1, P-1. The IRS should ensure that Forms 8038-T, Arbitrage Rebate
                                and Penalty in Lieu of Arbitrage Rebate, are recorded on the Return Inventory
                                Classification System and that responsible personnel consistently monitor the
                                processing of tax-exempt bond returns to promptly address any concerns that
                                would inhibit the IRS from accomplishing its desired program objectives.




                  Treasury Inspector General for Tax Administration
                                   March 31, 2001
                                                     57
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-10-058   March 2000     The Internal Revenue Service Needs to Improve Its Compliance With
                             Procedures When Processing Requests for Information Under the Freedom of
                             Information Act
                             F-1, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             improve its case management practices and oversight to ensure compliance
                             with the provisions of the Freedom of Information Act (FOIA), the Privacy Act
                             (PA), and the IRS’ own guidelines and policy when reviewing FOIA and PA
                             requests that are denied.
                             F-2, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             establish controls to minimize extended periods of inactivity while processing
                             requests for information.
                             F-2, R-2, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             modify procedures to allow the transfer of PA cases to the office that has
                             jurisdiction over the requested records.
                             F-2, R-3, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             improve controls to ensure appropriate research is performed to determine
                             whether the requested records can be provided by the office receiving the
                             request or transferred to the office maintaining the records.
                             F-2, R-4, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             ensure that planned enhancements to the Disclosure Information Management
                             System include providing system users with instant access to nationwide
                             disclosure information.
                             F-3, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             consider expanding procedures to have disclosure employees provide
                             information from similar files or sources when the information is not available
                             in the exact format specified by the requester.
                             F-3, R-2, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             obtain controlled access to the IRS’ tax account information in the National
                             Office of Governmental Liaison and Disclosure to research the availability of
                             the requested records.
                             F-3, R-3, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             modify the disclosure organization structure to enable the National Office to
                             have more national direction and oversight over disclosure offices.
                             F-3, R-4, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             develop and implement minimum standards for documenting case actions.
2000-10-061   March 2000     Letter Report: The Internal Revenue Service Should Improve Its Process to
                             Ensure the Fiscal Year 1999 Performance Report Will Contain the Information
                             Intended by the Congress
                             F-1, R-1, P-1. The IRS should ensure that any data limitations are properly
                             disclosed in the Annual Program Performance Report.
                             F-2, R-1, P-1. The Office of Strategic Planning and Budgeting should ensure
                             the development of a single set of authoritative instructions for timely
                             gathering and verifying data needed for Government Performance and Results
                             Act of 1993 reporting.




                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                 58
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-30-057   March 2000     Opportunities Exist for Further Reducing Erroneous Fuel Tax Credits
                             F-1, R-1, P-1. The IRS needs to emphasize the importance of checking prior
                             year returns for fuel tax credits, when closing current year fuel tax cases with
                             an adjustment, and to establish management controls to ensure that the
                             requirement is followed.
                             F-2, R-1, P-1. The Assistant Commissioner (Customer Service) needs to
                             provide professional preparer organizations with appropriate educational
                             materials on the tax regulations relating to tax credits for undyed diesel fuel
                             used by farmers.
                             F-2, R-2, P-1. The IRS should send information (i.e., educational) notices to
                             taxpayers who file returns claiming diesel fuel tax credits that are under the
                             minimum dollar amount for examination screening.
2000-30-059   March 2000     The Internal Revenue Service Can Improve the Estate Tax Collection Process
                             F-1, R-1, P-1. Collection and service center management should assign the
                             responsibility for determining whether a bond or tax lien should be secured to
                             the service center employees who process the installment agreements, instead
                             of to the district offices.
                             F-1, R-2, P-2. Service center management should review and approve all
                             requests for payment extensions. The review should ensure the estate has
                             demonstrated reasonable cause before granting the payment extension.
                             F-2, R-1, P-1. Collection management should instruct managers and
                             employees to conduct a 100 percent review of all current estate cases to ensure
                             active tax liens are input to the Automated Lien System (ALS), tax liens and
                             lien fees are properly reflected on the taxpayer accounts, and all tax liens are
                             released on accounts that have no tax obligation.
                             F-2, R-2, P-1. Collection and Information Systems management should
                             develop procedures to periodically reconcile tax liens on the ALS with
                             information shown on the taxpayer accounts.
                             F-2, R-3, P-1. Collection management should clarify procedures to employees
                             that all estate tax liens should be recorded on the ALS.
                             F-3, R-1, P-1. Collection and Information Systems management should
                             coordinate to review the collection statute abatement programming for accurate
                             Collection Statute Expiration Date (CSED) calculations.
                             F-3, R-3, P-1. Collection and service center management should ensure all
                             estate tax accounts with collection statute abatements are manually reviewed to
                             verify or correct CSED calculations.
                             F-3, R-4, P-1. Collection and Information Systems management should
                             coordinate to develop a procedure to identify accounts with multiple
                             assessments and collection statute dates to ensure partial abatements occur
                             when the earliest CSED is reached.




                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                 59
                           Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-30-062   March 2000     Toll-Free Telephone Service Levels Declined in 1999 Despite Costly Efforts to
                             Achieve World Class Performance
                             F-1, R-2, P-1. To improve Customer Service operations, the IRS needs to
                             manage the toll-free business components as an integrated system.
                             F-1, R-4, P-1. Customer Service management needs to establish national
                             owners to manage the various interdependent systems (e.g., hiring, training,
                             labor relations, work planning, forecasting, and scheduling) that affect
                             telephone operations.
                             F-1, R-6, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained Customer Service Representatives (CSRs) by
                             coordinating their actions to identify “best practices” at the call sites with
                             successful recruiting/hiring and intermediary skill training experiences and
                             share them with management at all sites.
                             F-1, R-7, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to reallocate
                             resources, resulting from attrition, from those sites with hiring difficulties to
                             other sites where qualified labor pools are more plentiful.
                             F-1, R-8, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to allocate
                             seasonal resources to those sites where qualified labor pools are more plentiful.
                             F-1, R-12, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to offer
                             incentives such as signing bonuses, subsidized transportation costs, and
                             extended-hour day care facilities.
                             F-1, R-14, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to explore
                             alternatives (e.g., out-sourcing to the private sector) for dealing with the
                             seasonal customer demands for answers to filing questions and tax law issues.
                             F-2, R-5, P-1. To increase the productivity and efficiency of the IRS’ toll-free
                             telephone operations, Customer Service management needs to renegotiate with
                             the National Treasury Employees Union to allow the use of “Idle with Reason
                             Codes” to determine employee abuses of lunches, breaks, etc.
                             F-3, R-1, P-1. To attain a reliable corporate measure of the quality of toll-free
                             telephone service provided to taxpayers, Customer Service management needs
                             to take actions to ensure that there is an adequately-sized centralized Quality
                             Review System staff in place to meet the requirements of the sampling plan or
                             find ways to increase the volume of calls monitored by each reviewer.
2000-40-029   March 2000     The Internal Revenue Service Could Enhance the Process for Implementing
                             New Tax Legislation
                             F-1, R-1, P-1. The IRS should develop a process which ensures that actions
                             necessary to implement a legislative act are completed timely.




                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                  60
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-40-045   March 2000     Taxpayers and the Internal Revenue Service Experienced Problems With Some
                             New Tax Provisions
                             F-2, R-1, P-1. The Chief Operations Officer (COO) should ensure that
                             computer programming necessary to identify taxpayer errors related to two tax
                             law provisions are completed by the 2001 filing season.
                             F-3, R-1, P-1. The COO should ensure that reviews of notices issued to
                             taxpayers are effective in ensuring the notices are technically accurate, clearly
                             address the taxpayers’ errors, and clearly inform taxpayers what steps they
                             need to take.
2000-40-055   March 2000     The Internal Revenue Service Needs to Improve Its Coordinated Oversight of
                             the Substitute for Return Process
                             F-1, R-1, P-1. The Chief Operations Officer (COO) should establish uniform
                             policies and procedures to ensure coordination of IRS efforts among the
                             functions processing Substitute for Return (SFR) accounts.
                             F-2, R-1, P-1. The COO should coordinate the development of a process to
                             monitor the future filing compliance of taxpayers with SFR tax assessments
                             regardless of which function processed the account.
                             F-2, R-2, P-1. The COO should coordinate the design of a process to profile
                             SFR tax assessments and their resolution regardless of processing function.
2000-40-063   May 2000       Increased Attention Is Needed to Ensure Timely, Accurate Determinations on
                             Innocent Spouse Claims for Relief
                             F-1, R-1, P-3. The IRS should set goals and standards for the Innocent Spouse
                             Program.
                             F-2, R-1, P-2. The IRS should design and implement a system of internal
                             controls that addresses the quantity, cost, and timeliness of the Innocent Spouse
                             Program to complement the existing internal controls over the quality of the
                             Program.
2000-40-069   May 2000       Internal Revenue Service’s Process for Controlling Filing Season Computer
                             Programming Changes Does Not Ensure Critical Changes Are Effectively
                             Implemented
                             F-2, R-1, P-3. Develop written criteria for prioritizing Requests for
                             Information Services (RIS) to ensure the RIS inventory is prioritized correctly
                             for the filing season.
2000-30-088   June 2000      Millions of Dollars in Internal Revenue Service Excess Collections Accounts
                             Could Be Credited to Taxpayers
                             F-1, R-1, P-2. The Customer Service function should use TIGTA developed
                             computer-matching techniques to identify and, where appropriate, transfer
                             payments from the Excess Collections Accounts to the taxpayers’ Masterfile
                             accounts.
                             F-2, R-1, P-1, P-2, P-3, P-4. The Chief Operations Officer (COO) needs to
                             coordinate education efforts for employees handling these accounts and
                             develop strategies for increasing taxpayer and practitioner awareness of the law
                             on the statute of limitations for refunding and crediting payments related to
                             overdue tax returns.
                             F-2, R-2, P-1, P-2. Customer Service and Submission Processing management
                             should develop procedures for contacting taxpayers one last time prior to the
                             statute of expiration date of payments in the Excess Collections Accounts and
                             advise them of the possible forfeiture of payments if the necessary tax returns
                             are not filed.



                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                  61
                          Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number        Issued       Report Title and Recommendation Summary

2000-20-092   June 2000     Certifying the Security of Internal Revenue Service Computer Systems Is Still a
                            Material Weakness
                            F-1, R-1, P-1. Information Systems management should place more emphasis
                            on building security controls into new information systems. To ensure this
                            happens, IRS management should not authorize the implementation of any new
                            system until controls are sufficient and the system has the required security
                            certification and accreditation.
                            F-1, R-2, P-1. For systems that have already been implemented, Information
                            Systems management needs to place additional emphasis on timely
                            certification and accreditation. Information Systems management should
                            ensure that funds continue to be allocated for contractor support during the
                            certification process and consideration should be given to increasing this
                            allocation in order to get systems certified as soon as possible.
                            F-1, R-3, P-1. Information Systems management should consider increasing
                            the human resources within the IRS devoted to certifying and accrediting the
                            security features of information systems.
                            F-1, R-4, P-1. Information Systems management should ensure that IRS’
                            certification process includes follow-ups with the accrediting executives prior
                            to the expiration of their systems security certification to ensure that they are
                            aware that a new certification and accreditation is required.
                            F-1, R-5, P-1. Information Systems management should ensure that all
                            functional executives for individual systems are fully aware of the overall
                            certification and accreditation process.
                            F-1, R-6, P-1. Information Systems management should centralize the process
                            for identifying and tracking all information systems requiring certification and
                            accreditation.
                            F-2, R-1, P-1. Information Systems management should ensure that IRS’
                            certification process includes follow-ups with the accrediting executives to
                            ensure that necessary information relevant to the official accreditation is
                            provided and to educate them on the importance of providing this information.
2000-20-094   June 2000     A Comprehensive Program for Preventing and Detecting Computer Viruses Is
                            Needed
                            F-2, R-1, P-1. The official responsible for the virus program should develop
                            and implement IRS-wide procedures detailing the frequency and steps to be
                            followed for reliably updating anti-virus software on both networked and
                            portable notebook computers.
                            F-2, R-2, P-1. The official responsible for the virus program should establish
                            controls for ensuring all updates have been successfully accomplished.
                            F-3, R-1, P-1. The official responsible for the virus program should develop a
                            system for gathering information to help analyze and monitor the effectiveness
                            of the program’s virus detection and prevention activities.
                            F-4, R-1, P-1. The official responsible for the virus program should strengthen
                            procedures for ensuring that employees comply with the Internal Revenue
                            Manual requirements for preparing Virus Incident Reports.




                Treasury Inspector General for Tax Administration
                                 March 31, 2001
                                                 62
                            Semiannual Report to the Congress


                                                                                         Appendix III
                                                                           Statistical Reports – Other

     Audit Reports With Significant Unimplemented Corrective Actions

Reference
 Number         Issued        Report Title and Recommendation Summary

2000-20-095    June 2000      The Security and Performance of Electronic Tax Return Processing Should Be
                              Improved to Meet Future Goals
                              F-2, R-1, P-1. The Chief Information Officer (CIO) should develop and
                              implement improved security standards and procedures for all tax return
                              transmissions.
                              F-2, R-2, P-1. The CIO should integrate the improved procedures for the
                              electronic transmission of tax returns from trading partners into the future IRS
                              modernization architecture.
                              F-5, R-1, P-1. The CIO should ensure that the Electronic Management System
                              disaster plan is completed and periodic recovery plan exercises are conducted.
2000-20-097    June 2000      The Internal Revenue Service Should Improve Actions to Protect Its Critical
                              Infrastructure
                              F-1, R-2, P-1. The Chief Infrastructure Assurance Officer (CIAO) should
                              ensure that vulnerabilities to all mission essential assets, including facilities,
                              systems, applications, personnel, and data, are assessed during future security
                              reviews. In addition, the CIAO should evaluate the interdependencies inherent
                              in the IRS’ mission essential activities.
2000-20-099    June 2000      Significant Risks Need to Be Addressed to Ensure Adequate Oversight of the
                              Systems Modernization Effort
                              F-1, R-3, P-1. Finalize and fully implement Quality Assurance policies and
                              procedures throughout the organization.
                              F-2, R-1, P-1. Develop a staffing plan for the Program Management Office
                              (PMO) to ensure that the PMO is adequately staffed and the personnel have
                              proper training.
                              F-2, R-4, P-1. Develop a back-up plan for key personnel to ensure that the
                              PMO is adequately staffed and the personnel have proper training.
                              F-2, R-5, P-1. Develop policies and procedures to regularly update the staffing
                              plan, skills analysis, training plan, and back-up plan for key personnel.
                              F-3, R-1, P-1. Ensure that the approved PMO includes a single office
                              responsible for developing policies and procedures to create a formal
                              performance monitoring framework.
                              F-3, R-3, P-1. Assess the PRIME contractor’s processes to ensure that
                              performance monitoring data being provided to the IRS are complete and
                              accurate.
2000-30-111   August 2000     Improvements Are Needed in Resolving In-Business Trust Fund Delinquencies
                              to Prevent Tax Liabilities From Pyramiding
                              F-2, R-1, P-1. Use all collection tools, including enforcement tools and require
                              the filing of monthly, rather than quarterly, returns.




                 Treasury Inspector General for Tax Administration
                                  March 31, 2001
                                                   63
                             Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

      Audit Reports With Significant Unimplemented Corrective Actions

 Reference
  Number          Issued       Report Title and Recommendation Summary

2000-30-120    August 2000     Expanding the Electronic Tax Law Assistance Program
                               F-1, R-1, P-1. To meet its Electronic Tax Administration goals, the IRS needs
                               to redesign the Electronic Tax Law Assistance (ETLA) program to leverage
                               technology that will provide enhanced access to tax information, maximize
                               efficiency, and improve electronic customer service.
                               F-2, R-1, P-1. To effectively administer the rapid growth of taxpayer demand,
                               economically use resources, and design future enhancements of the program,
                               the IRS needs to fully commit to the ETLA program by converting it from a
                               long-term research project to a fully supported independent function.
                               F-3, R-1, P-1. Until there are technological changes and an organizational
                               commitment, the IRS needs to delay the marketing of the ETLA program. In
                               the interim, the IRS should expand the ETLA program to additional call sites to
                               process the ever-increasing taxpayer demand for this electronic service while
                               reducing the need to use more expensive Compliance function personnel.
2000-30-130   September 2000   Opportunities Exist to Enhance the International Field Assistance
                               Specialization Program
                               F-2, R-1, P-1. The Commissioner, Large and Mid-Size Business (LMSB)
                               Division, should improve the management information system by linking the
                               International Field Assistance Specialization Program (IFASP) indicator to
                               specific issues listed in the International Case Management System.
                               F-2, R-2, P-2. The Commissioner, LMSB Division, should ensure
                               international examiners gain greater access to the IRS’ Intranet so that the
                               IFASP can accumulate and disseminate more information electronically,
                               including an electronic referral form for IFASP assistance.
2000-10-145   September 2000   Improvements Are Needed to Ensure Control and Accountability Over
                               Automated Data Processing Assets
                               F-1, R-1, P-1. The Director, Enterprise Operations, should take appropriate
                               action on the recommendation made by the Chief, Transmittal and Control
                               Branch, to conduct quality reviews prior to forwarding the Automated Data
                               Processing Property Certifications to the Chief Information Officer (CIO) for
                               final approval and certification to the Commissioner.
                               F-2, R-1, P-1. The CIO, together with senior executives from other affected
                               IRS organizational components, should re-evaluate resource commitments
                               needed to successfully implement the Single Point Inventory Function and
                               elevate to the Deputy Commissioner Operations for resolution any staffing
                               shortages that imperil successful implementation.
                               F-3, R-1, P-2. The Asset Management Modernization Project Office Manager
                               should ensure the Single Point Inventory Function Standard Operating
                               Procedures are updated to include accountability and identification of internal
                               use software and documentation for annual physical inventories.
2000-30-146   September 2000   Opportunities Exist to Identify Unreported Taxes from Employer’s Quarterly
                               Federal Tax Returns
                               F-1, R-1, P-2, P-3, P-4. TIGTA recommended that the Commissioners of the
                               Small Business/Self-Employed (SB/SE) Division, and Large and Mid-Size
                               Business (LMSB) Division, and the Chief, Criminal Investigation, increase
                               Employer’s Quarterly Tax Return (Form 941) compliance efforts.




                  Treasury Inspector General for Tax Administration
                                   March 31, 2001
                                                   64
                           Semiannual Report to the Congress


                                                                                         Appendix III
                                                                           Statistical Reports – Other

      Audit Reports With Significant Unimplemented Corrective Actions

 Reference
  Number          Issued       Report Title and Recommendation Summary

2000-30-154   September 2000   Significant Improvements Are Needed in Processing Gift Tax Payments and
                               Associated Extensions to File
                               F-1, R-1, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should require that all balance due notices generated for gift tax
                               accounts be reviewed. Tax examiners should be instructed to review the
                               taxpayers’ corresponding individual income tax and gift tax accounts to
                               determine if the taxpayers’ gift tax payments and extensions were correctly
                               processed.
                               F-1, R-2, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should revise the current IRS center instructions for the processing
                               of Applications for Automatic Extension of Time To File U.S. Individual
                               Income Tax Return (Form 4868) to ensure that gift tax payments and
                               extensions are processed to the proper taxpayer accounts.
                               F-1, R-3, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should explore the possibility of updating the Integrated
                               Submission and Remittance Processing System to permit the posting of
                               extensions to both the individual and gift tax accounts.
                               F-1, R-4, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should ensure that current lockbox guidelines for the processing of
                               Forms 4868 with payments for both the individual income tax and gift tax
                               accounts are followed.
                               F-1, R-5, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should expand and clarify the current lockbox guidelines for the
                               processing of Forms 4868 sent by taxpayers requesting extensions for both
                               their individual income and gift tax accounts but with payments for only one of
                               the accounts.
                               F-1, R-6, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should clarify the current lockbox guidelines for the processing of
                               payments and extensions submitted by taxpayers “for gift tax only.”
                               F-1, R-8, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should ensure that Service Center Monthly Lockbox Performance
                               Reports, prepared by the lockbox coordinators, conform to the exhibit in
                               Internal Revenue Manual 3.0.230-1 (01-01-2000).
                               F-1, R-9, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should instruct the lockbox coordinators and the quality reviewers,
                               assigned to review lockbox processing, to determine whether payments and
                               extensions were applied to the correct taxpayers’ accounts (individual income
                               and gift tax accounts) during their reviews of Forms 4868 involving gift tax
                               extensions and/or gift tax payments.
                               F-1, R-11, P-1. The Assistant Commissioner (Forms and Submission
                               Processing) should instruct the lockbox depository to perform a review of the
                               Forms 4868 during the 2001 filing season.
2000-20-158   September 2000   Additional Actions Are Needed to Strengthen the Development and
                               Enforcement of the Enterprise Architecture
                               F-5, R-1, P-1. The Chief Information Officer (CIO) should establish an
                               enforcement process to ensure compliance with the enterprise architecture.
                               F-5, R-2, P-1. The CIO should establish a waiver process to approve minor
                               deviations from the established architecture standards.




                  Treasury Inspector General for Tax Administration
                                   March 31, 2001
                                                   65
                           Semiannual Report to the Congress


                                                                                         Appendix III
                                                                           Statistical Reports – Other

      Audit Reports With Significant Unimplemented Corrective Actions

 Reference
  Number          Issued       Report Title and Recommendation Summary

2000-30-162   September 2000   The Internal Revenue Service Needs to Better Address Bankruptcy Automatic
                               Stay Violations
                               F-1, R-1, P-1, P-2. The Assistant Commissioner (Collection) should ensure
                               bankruptcy examiners are properly resolving violations of the automatic stay
                               by reviewing litigation transcripts on a timely basis.
                               F-1, R-2, P-1. The Assistant Commissioner (Collection) should provide
                               additional computer programming enhancements to improve the value of
                               litigation transcripts.
                               F-1, R-3, P-1. The Assistant Commissioner (Collection) should provide
                               additional guidance to Special Procedures function (SPf) employees on specific
                               conditions that may be considered violations of the automatic stay.
                               F-1, R-4, P-1. The Assistant Commissioner (Collection) should provide
                               specific guidance in the Internal Revenue Manual so the field offices know
                               when and how to refund payments received after the bankruptcy petition date.
                               F-1, R-5, P-1. The Assistant Commissioner (Collection) should provide
                               consistent guidelines to the SPf units on how to notify the Examination
                               function that the taxpayer is in bankruptcy.
                               F-2, R-1, P-1, P-2. The Assistant Commissioner (Collection) should request
                               that the Automated Insolvency System be reprogrammed so that the actual
                               receipt date of the case can be input into the system to provide management
                               with more accurate data on timeliness of input of new case information.
                               F-2, R-2, P-1, P-2. The Assistant Commissioner (Collection) should ensure
                               that all employees review the Potentially Invalid Taxpayer report and resolve
                               all cases promptly to ensure timely posting of the bankruptcy to the taxpayer’s
                               account.




                  Treasury Inspector General for Tax Administration
                                   March 31, 2001
                                                   66
                           Semiannual Report to the Congress


                                                                                Appendix III
                                                                  Statistical Reports—Other


Access to Information
The Inspector General Act of 1978 requires Inspectors General to report on unreasonable refusals
of information available to the agency which relate to programs and operations for which the
Inspectors General have responsibilities. There were no instances where information or
assistance requested by TIGTA was refused.

Audit Reports Issued in the Prior Reporting Period With No Management
Response
The Inspector General Act of 1978 requires Inspectors General to provide a summary of each
audit report issued before the beginning of the current reporting period for which no management
response has been received by the end of the current reporting period. As of March 31, 2001,
there were no prior reports where management’s response was not received.

Revised Management Decisions
The Inspector General Act of 1978 requires Inspectors General to provide a description and
explanation of the reasons for any significant revised management decisions made during the
reporting period. As of March 31, 2001, no significant management decisions were revised.

Disputed Audit Recommendations
The Inspector General Act of 1978 requires Inspectors General to provide information on
significant management decisions in response to audit recommendations, with which the
Inspectors General disagree. As of March 31, 2001, there was one report where a significant
recommendation was disputed.
        The Internal Revenue Service Should Take Additional Actions to Protect Taxpayer
        Remittances, Reference No. 2000-30-153

Review of Legislation and Regulations
The Inspector General Act of 1978 requires Inspectors General to review existing and proposed
legislation and regulations and to make recommendations concerning the impact of such
legislation or regulations. TIGTA’s Office of Chief Counsel reviewed 152 proposed legislation
and regulations during the six-month reporting period.




                  Treasury Inspector General for Tax Administration
                                   March 31, 2001
                                               67
                          Semiannual Report to the Congress


                                                                                       Appendix IV

                              TIGTA Audit Report Listing

                        October 1, 2000 - March 31, 2001


Reference
                 Issued         Report Title
Number
2001-1C-007    October 2000     Incurred Cost Audit TIRNO-95-C-00044

2001-10-001    October 2000     The National Taxpayer Advocate Can Improve the Service Provided to
                                Taxpayers
2001-10-002    October 2000     Letter Report: The Tax Exempt and Government Entities Division Needs
                                to Improve the Oversight Process for Referrals and Information Items
2001-10-005    October 2000     The Foundation Information for Real Property Management System Can
                                Be an Effective Tool to Manage Space Inventory
2001-10-010    October 2000     Management Advisory Report: Review of Alleged Regulatory Violation
                                in Administering the Accounting Support Services Contract
2001-20-004    October 2000     Efforts to Consolidate Information Systems Staff Need Additional
                                Attention

                                Reliability of Information:        $189 million in labor and position
                                                                   support costs that were not under the
                                                                   Chief Information Officer’s control
                                                                   in FY 2000 and 2001
                                Protection of Resources:           $58 million of savings by reaching
                                                                   industry rations for desktop
                                                                   computers and printers and
                                                                   controlling purchases and
                                                                   distribution of new equipment
                                                                   $16 million of savings in labor costs
                                                                   by consolidating desktop support
                                                                   staff
2001-30-006    October 2000     Management Advisory Report: Strategic Planning for Toll-Free
                                Telephone Operations Has Made Significant Progress, But Further
                                Improvements Are Needed
2001-40-003   November 2000     The Internal Revenue Service Faces the Challenge of Increased Demands
                                for Tax Return Preparation Assistance in the Future
2001-30-014   November 2000     The Internal Revenue Service Does Not Effectively Use the Trust Fund
                                Recovery Penalty as a Collection Enforcement Tool
2001-20-015   November 2000     Implementation of the New Methodology for Systems Modernization
                                Needs Increased Focus and Support
2001-10-011   November 2000     Letter Report: Chief Counsel Properly Administered Fees Paid for
                                Internal Revenue Service Guidance
2001-40-013   November 2000     Letter Report: The Taxpayer Repeater Indicator Should Be
                                Reprogrammed or Eliminated
2001-20-016   November 2000     Employees’ Extensive Personal Use of the Internet Should Be Controlled

2001-20-017   November 2000     Management Should Take Action to Address Employees’ Personal Use of
                                E-Mail



               Treasury Inspector General for Tax Administration
                                March 31, 2001
                                                 69
                          Semiannual Report to the Congress


                                                                                          Appendix IV

                              TIGTA Audit Report Listing

Reference
                 Issued         Report Title
Number
2001-10-018   November 2000     The Asset Management Program Can Be Successful Through Active
                                Executive Monitoring and Oversight
2001-10-009   November 2000     The Internal Revenue Service Needs to Ensure That Its Future Annual
                                Program Performance Reports Include All Requested Information
2001-30-019   November 2000     Letter Report: More Small Corporate Taxpayers Can Benefit from the
                                Alternative Minimum Tax Exemption Provision
                                Taxpayer Rights and Entitlements:        2,178 small business corporate
                                                                         taxpayers unaware of the exemption
                                                                         from the alternative minimum tax
                                                                         $25 million in erroneously paid
                                                                         alternative minimum tax
2001-10-012   November 2000     Federal Tax Information Used by Customer Satisfaction Survey
                                Contractors Needs to Be Better Protected
                                Taxpayer Privacy and Security:          999,353 taxpayer accounts at risk of
                                                                        unauthorized disclosure
2001-40-008   November 2000     Electronic Returns Were Processed Effectively
                                Taxpayer Burden:                        37,000 electronic filing providers
                                                                        that may not receive adequate
                                                                        customer service
2001-20-020   November 2000     Computer Security Controls Should Be Strengthened in the Former
                                Brooklyn District
                                Taxpayer Privacy and Security:          1 million taxpayer accounts at risk
                                                                        of unauthorized disclosure
2001-10-028   December 2000     The Tax Exempt and Government Entities Division Needs to Improve the
                                Oversight Process for Compliance Project Examination Activities
2001-10-023   December 2000     The Reliability of the Information on the Exempt Organizations Business
                                Master File Needs to Be Improved
2001-30-031   December 2000     Management Advisory Report: Substantial Work Remains If the Internal
                                Revenue Service Is to Provide Refund Status Information on the Internet
                                by the Beginning of the 2002 Filing Season
2001-10-026   December 2000     Additional Management Actions Are Needed to Ensure the Timely and
                                Successful Modernization of the Tax Exempt and Government Entities
                                Division
2001-1C-029   December 2000     Incurred Cost Audit TIRNO-95-D-00062 FY 98

2001-20-022   December 2000     Controls Over the Development of the Practitioner Secure Messaging
                                System Prototype Should Be Improved
                                Protection of Resources:                 $755,000 in contract costs




               Treasury Inspector General for Tax Administration
                                March 31, 2001
                                                70
                          Semiannual Report to the Congress


                                                                                         Appendix IV

                              TIGTA Audit Report Listing

Reference
                 Issued         Report Title
Number
2001-20-034   December 2000     The Control Environment Over the Consolidated Computer System for
                                Collection Activities Needs to Be Strengthened
                                Taxpayer Burden:                    Strengthened computer system
                                                                    controls ensure 4.4 million
                                                                    delinquent taxpayers receive
                                                                    applicable notices
                                Taxpayer Privacy and Security:      4.4 million taxpayer delinquent
                                                                    accounts at risk
2001-40-024   December 2000     The Program for Ensuring Compliance With Anti-Money Laundering
                                Reporting Requirements Should Be Improved
                                Reliability of Information:         Over 94,000 entities not on IRS
                                                                    non-banks inventory
2001-40-030   December 2000     Improvements Are Needed in the Earned Income Credit Recertification
                                Program
                                Revenue Protection:                 $82,000 from 40 taxpayers
                                                                    4,100 taxpayers with recertification
                                                                    determination indicators incorrectly
                                                                    removed
                                                                    5,200 taxpayers could receive child-
                                                                    related earned income credit (EIC)
                                                                    based on being recertified after
                                                                    receiving income-only EIC
                                Taxpayer Burden:                        336,000 taxpayers received one or
                                                                        more unclear letters
                                                                        59 taxpayers had unnecessary
                                                                        processing delays
                                Taxpayer Rights and Entitlements:       11,400 taxpayers did not have the
                                                                        recertification indicator removed
                                                                        Over 6,000 taxpayers did not
                                                                        receive a letter informing them that
                                                                        they may be eligible for income-only
                                                                        EIC
                                                                      86 taxpayers with unnecessary
                                                                      delays in releasing tax refunds
2001-40-035   December 2000     Letter Report: Allegation of Taxpayer Abuse Involving the Earned
                                Income and Child/Dependent Care Tax Credits
2001-1C-032   December 2000     Incurred Cost Audit TIRNO-95-D-00062 FY 97

2001-40-025   January 2001      Letter Report: Revised Questionable Refund Program Procedures Were
                                Not Consistently Implemented
                                Taxpayer Rights and Entitlements:    20 taxpayers not notified of
                                                                      revisions
2001-10-027   January 2001      Improved Case Monitoring and Taxpayer Awareness Activities Can
                                Enhance the Effectiveness of the Tax Practitioner Disciplinary
                                Proceedings Program


               Treasury Inspector General for Tax Administration
                                March 31, 2001
                                                71
                          Semiannual Report to the Congress


                                                                                         Appendix IV

                              TIGTA Audit Report Listing

Reference
                 Issued         Report Title
Number
2001-40-021   January 2001      Additional Efforts Are Needed for Improving Revenue Protection

2001-20-036   January 2001      Computer Security Controls Should Be Strengthened in the Former
                                Northern California District
                                Taxpayer Privacy and Security:       130 million taxpayers accessible
                                                                     through the local area network
                                                                     connection
2001-1C-038   January 2001      Audit of Selected Final Vouchers for TIRNO-95-D-00065

2001-10-040   January 2001      Controls Over Criminal Investigation Investigative Imprest Funds Should
                                Be Strengthened
                                Funds Put to Better Use:               $49,000
2001-10-044   January 2001      Letter Report: Attestation Review of the Internal Revenue Service’s
                                Fiscal Years 1999 and 2000 Office of National Drug Control Policy
                                Accounting Submissions
2001-40-041   January 2001      The Internal Revenue Service Had a Successful 2000 Filing Season;
                                However, Opportunities Exist to More Effectively Implement Tax Law
                                Changes
                                Increased Revenue:                      $211 million for 505,706 taxpayers
                                                                        2.7 million taxpayers with invalid
                                                                        secondary social security numbers
2001-40-042   January 2001      Letter Report: Oversight of the Philadelphia Lockbox Bank Should Be
                                Improved
                                 Funds Put to Better Use:               $109,056
2001-20-039   February 2001     The Business Systems Modernization Office Has Made Solid Progress and
                                Can Take Additional Actions to Enhance the Chances of Long-Term
                                Success
2001-40-033   February 2001    Management Advisory Report: The Wage and Investment Division
                               Substantially Completed the Five Stand-Up Elements
2001-20-043   February 2001    Electronic Signature Initiatives Could Be Better Defined and Evaluated
                               Reliability of Information:              6 operational alternative signature
                                                                        initiatives without cost/benefit
                                                                        analysis
                               Taxpayer Privacy and Security:           Approximately 12 million
                                                                        individual tax returns signed with a
                                                                        Personal Identification Number
                                                                        during the 2000 filing season
2001-20-045   February 2001    Information Systems Needs to Improve the Clarity of Responses to Audit
                               Reports and Ensure Corrective Actions Are Timely Resolved
2001-20-046   February 2001    The Internal Revenue Service Can Improve Its Capacity and Performance
                               Program to Better Manage the Availability of Its Computer Systems
                               Protection of Resources:                $65.5 million spent or budgeted
                                                                       during calendar years 2000 – 2002
                                                                       for mid-range computer system
                                                                       consolidation




              Treasury Inspector General for Tax Administration
                               March 31, 2001
                                               72
                          Semiannual Report to the Congress


                                                                                        Appendix IV

                              TIGTA Audit Report Listing

Reference
                 Issued         Report Title
Number
2001-40-047   February 2001     Management Advisory Report: The Probability of Meeting Electronic
                                Tax Administration Goals Remains Questionable
2001-40-048   February 2001     Letter Report: Improvements at the Lockbox Bank in Atlanta Are
                                Needed to Better Protect Taxpayer Payments and Minimize Processing
                                Costs
                                Protection of Resources:                3,415,175 remittances totaling
                                                                        $17,581,662,104
                                Taxpayer Privacy and Security:         1,106,311 returns handled by the
                                                                       bank
2001-40-049   February 2001     Management Advisory Report: Risks Should Be Weighed When Using
                                Electronic Services as Incentives
                                Taxpayer Burden:                       21 million individual tax returns
                                                                       that were filed electronically by
                                                                       Electronic Return Originators
2001-10-051    March 2001       The Treasury Inspector General for Tax Administration Can Rely Upon
                                Data on the Electronic Disclosure Information Management System for
                                Its Statutory Review
                                Taxpayer Rights and Entitlements:      1,265 Freedom of Information Act
                                                                       and Privacy Act cases with
                                                                       inaccurate revised response dates
2001-30-052    March 2001       Program Improvements Are Needed to Encourage Taxpayer Compliance
                                in Reporting Foreign Sourced Income
2001-40-053    March 2001       Audit Reconsideration Cases Create Unnecessary Burden on Taxpayers
                                and the Internal Revenue Service
                                Taxpayer Burden:                     106,584 taxpayers with audit
                                                                     reconsideration cases which
                                                                     resulted in full or partial tax
                                                                     abatements
2001-20-055    March 2001       Progress in Developing the Customer Communications Project Has Been
                                Made, But Risks to Timely Deployment in 2001 Still Exist
                                Taxpayer Burden:                     9.6 million fewer taxpayer calls will
                                                                     be completed for the 2001 filing
                                                                     season.
                                Protection of Resources:             $5.67 million in proposed FY 2001
                                                                     benefits will not be realized.
2001-1C-050    March 2001       Audit of Selected Travel Costs TIRNO-99-D-00001
                                Questioned Costs:                    $28,343
2001-30-060    March 2001       Letter Report: Centralizing the Processing of Business Tax Returns – The
                                Internal Revenue Service Considered Pertinent Risk Factors, but Needs to
                                Update and Test Business Recovery Plans
2001-40-059    March 2001       Duplicate Dependent and Qualifying Child Overclaims Result in
                                Substantial Losses of Tax Revenue Each Year
                                Increased Revenue:                      $176,898,921




              Treasury Inspector General for Tax Administration
                               March 31, 2001
                                                73
                                   Semiannual Report to the Congress


                                                                                                   Appendix IV

                                     TIGTA Audit Report Listing

    Reference
                          Issued         Report Title
    Number
    201-20-062          March 2001       The Information Systems Organization Can Improve Processes to
                                         Manage Its Budget Appropriation

   2001-40-064          March 2001       Management Advisory Report: Improvements Are Needed to Assess the
                                         Use and Impact of the Earned Income Credit Appropriation
                                         Reliability of Information:          Report to the Congress was
                                                                              overstated by 1,015 Earned Income
                                                                              Credit cases and 155,000 notices
   2001-30-063          March 2001       More Consideration Is Needed During Examinations to Identify Potential
                                         Fraud Issues and Refer Cases to Criminal Investigation
                                         Increased Revenue:                    $21.8 million for 381 taxpayer
                                                                               accounts
                                                                               $51,183 additional tax assessment
   2001-30-054          March 2001       Management Advisory Report: Additional Management Actions Are
                                         Needed for Placing Small Business/Self-Employed Division Transition
                                         Employees
   2001-0T-074          March 2001       Inspector General Testimony: Hearing Before the Subcommittee on
                                         Treasury, Postal Service and General Government Committee on
                                         Appropriations, U.S. House of Representatives

Note: Outcome measures are shown in italicized type. A taxpayer’s account may be impacted by multiple
recommendations.

TIGTA audit reports are available on-line at http://www.treas.gov/tigta/audit_reports.html




                       Treasury Inspector General for Tax Administration
                                        March 31, 2001
                                                         74
                                    Semiannual Report to the Congress


                                                                                              Appendix V

                                          Section 1203 Standards

In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of the IRS if there is a final administrative or judicial determination that in the
performance of official duties such employee committed the misconduct violations outlined
below. Such termination shall be a removal for cause on charges of misconduct.
Misconduct violations include:
(1) willful failure to obtain the required approval signatures on documents authorizing the seizure
    of a taxpayer’s home, personal belongings, or business assets;
(2) providing a false statement under oath with respect to a material matter involving a taxpayer
    or taxpayer representative;
(3) with respect to a taxpayer, taxpayer representative, or other employee of the IRS, the violation
    of –
       •    any right under the Constitution of the United States, or
       •    any civil right established under –
                     (i)         Title VI or VII of the Civil Rights Act of 19641 ,
                     (ii)        Title IX of the Education Amendments of 19722 ,
                     (iii)       The Age Discrimination in Employment Act of 19673 ,
                     (iv)        The Age Discrimination Act of 19754 ,
                     (v)         Section 501 or 504 of the Rehabilitation Act of 19735 , or
                     (vi)        Title I of the Americans with Disabilities Act of 19906 ;
(4) falsifying or destroying documents to conceal mistakes made by any employee with respect to
     a matter involving a taxpayer or taxpayer representative;
(5) assault or battery on a taxpayer, taxpayer representative, or other employee of the IRS, but
    only if there is a criminal conviction, or a final judgment by a court in a civil case, with
    respect to the assault or battery;
(6) violations of the Internal Revenue Code, Department of Treasury regulation, or policies of the
    IRS (including the Internal Revenue Manual) for the purpose of retaliating against, or
    harassing a taxpayer, taxpayer representative, or other employee of the IRS;




1
    42 U.S.C. § 2000e
2
    20 U.S.C. §§ 1681-1688
3
    29 U.S.C. §§ 621-634
4
    42 U.S.C. §§ 6101-6107
5
    29 U.S.C. §§ 701 & 794
6
    42 U.S.C. §§ 12111 et seq.


                            Treasury Inspector General for Tax Administration
                                             March 31, 2001
                                                         75
                            Semiannual Report to the Congress


                                                                                       Appendix V

                                  Section 1203 Standards

(7) willful misuse of the provisions of Section 6103 of the Internal Revenue Code for the purpose
    of concealing information from a Congressional inquiry;
(8) willful failure to file any return of tax required under the Internal Revenue Code of 1986 on or
    before the date prescribed therefor (including any extensions), unless such failure is due to
   reasonable cause and not to willful neglect;
(9) willful understatement of federal tax liability, unless such understatement is due to reasonable
    cause and not to willful neglect, and,
(10) threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.


In general, the Commissioner of Internal Revenue may take a personnel action other than
employment termination for the misconduct violations outlined above. The exercise of this
authority shall be at the sole discretion of the Commissioner and may not be delegated to any
other officer. The Commissioner in his sole discretion may establish a procedure which will be
used to determine whether an individual should be referred to the Commissioner for a
determination by the Commissioner. Any determination of the Commissioner in these matters
may not be appealed in any administrative or judicial proceeding.




                   Treasury Inspector General for Tax Administration
                                    March 31, 2001
                                                 76
                                  Semiannual Report to the Congress


                                                                                                       Appendix VI

                              Statutory TIGTA Reporting Requirements

In FY 2001, TIGTA completed its third round of statutory reviews required annually by RRA 98.
The table below reflects the status of the FY 2001 RRA 98 statutory reviews. Fourteen statutory
audit reports were issued in this reporting period that dealt with the adequacy and security of IRS
technology. 1



   Reference to                   Explanation of the
                                                                         Comments/TIGTA Audit Status
Statutory Coverage                    Provision
Restrictions on the Use        An evaluation of the               Audit fieldwork in process.
of Enforcement Statistics      compliance of the IRS with
                               restrictions under § 1204 of
I.R.C. § 7803(d)(1)(A)(i)      RRA 98 on the use of
                               enforcement statistics to
                               evaluate IRS employees.
Restrictions on Directly       An evaluation of the               Audit fieldwork in process.
Contacting Taxpayers           compliance of the IRS with
                               restrictions under I.R.C. § 7521
I.R.C. § 7803(d)(1)(A)(ii)     on directly contacting
                               taxpayers who have indicated
                               that they prefer their
                               representatives be contacted.
Filing of a Notice of Lien     An evaluation of the               Audit fieldwork in process.
                               compliance of the IRS with
I.R.C. § 7803(d)(1)(A)(iii)    required procedures under
                               I.R.C. § 6320 (Supp. IV 1998)
                               upon the filing of a notice of
                               lien.
Levies                         An evaluation of the               Audit fieldwork in process.
                               compliance of the IRS with
I.R.C.                         required procedures under
§ 7803 (d)(1)(A)(iv)           I.R.C § 6330 (Supp. IV 1998)
                               regarding levies.
Collection Due Process         An evaluation of the               Audit fieldwork in process.
                               compliance of the IRS with
I.R.C.                         required procedures under
§ 7803 (d)(1)(A)(iii) and      I.R.C. §§ 6320 and 6330 (Supp.
(iv)                           IV 1998) regarding the
                               taxpayers’ rights to appeal lien
                               or levy actions.
Seizures                       An evaluation of the               Audit fieldwork in process.
                               compliance of the IRS with
I.R.C. § 7803(d)(1)(A)(iv)     required procedures under
                               Subchapter D of Chapter 64 for
                               seizure of property for
                               collection of taxes.




1
  This includes: 5 audit reports were issued on the security of IRS technology; and, 9 audit reports were issued on IRS
information technology. All information technology program reviews are considered statutory based on the RRA 98
requirement to report annually on the adequacy and security of IRS technology.


                       Treasury Inspector General for Tax Administration
                                        March 31, 2001
                                                           77
                                Semiannual Report to the Congress


                                                                                               Appendix VI

                            Statutory TIGTA Reporting Requirements

   Reference to                  Explanation of the
                                                                       Comments/TIGTA Audit Status
Statutory Coverage                   Provision
Taxpayer Designations –      An evaluation of the                Audit fieldwork in process.
Illegal Tax Protester        compliance of the IRS with
Designation and Nonfiler     restrictions under § 3707 of
Designation                  RRA 98 on designation of
                             taxpayers.
I.R.C. § 7803(d)(1)(A)(v)
Disclosure of Collection     Review and certify whether or       Audit fieldwork in process.
Activities With Respect      not the IRS is complying with
to Joint Returns             I.R.C. § 6103(e)(8) to disclose
                             information to an individual
I.R.C. § 7803(d)(1)(B)       filing a joint return on
I.R.C. § 6103(e)(8)          collection activity involving the
                             other individual filing the
                             return.
Complaints and               List any terminations or            Audit fieldwork in process.
Allegations of Employee      mitigation under § 1203 of
Misconduct and               RRA 98, § 1102(a).
Terminations and
Mitigation for Certain
Proven Violations
Committed by IRS
Employees

I.R.C. § 7803(d)(1)(E)
I.R.C. § 7803(d)(2)(A)
Administrative or Civil      Include information regarding       Audit fieldwork in process.
Actions With Respect to      any administrative or civil
the Fair Debt Collection     actions with respect to
Practices Act of 1996        violations of the fair debt
                             collection provision of I.R.C.
I.R.C. § 7803(d)(1)(G)       § 6304, including a summary of
I.R.C. § 6304                such actions, and any resulting
§ 3466 of RRA 98             judgments or awards granted.
Denial of Requests for       Include information regarding       Audit fieldwork in process.
Information                  improper denial of requests for
                             information from the IRS,
I.R.C. § 7803(d)(1)(F)       based on a statistically valid
I.R.C. § 7803(d)(3)(A)       sample of the total number of
                             determinations made by the
                             IRS to deny written requests to
                             disclose information to
                             taxpayers on the basis of
                             I.R.C. § 6103 or
                             5 U.S.C. § 552(b)(7).




                         Treasury Inspector General for Tax Administration
                                          March 31, 2001
                                                            78
                                Semiannual Report to the Congress


                                                                                                     Appendix VI

                            Statutory TIGTA Reporting Requirements

   Reference to                  Explanation of the
                                                                        Comments/TIGTA Audit Status
Statutory Coverage                   Provision
Adequacy and Security        Evaluation of the adequacy and      TIGTA’s annual assessment of the adequacy and
of the Technology of the     security of the technology of       security of IRS technology will be provided in the
IRS                          the IRS.                            next Semiannual Report to the Congress. For
                                                                 highlights of recent information technology audits,
I.R.C. § 7803(d)(1)(D)                                           see pages 10, 11 and 12.

                                                                 On October 30, 2000, the President signed into law
                                                                 the FY 2001 Defense Authorization Act
                                                                 (P.L. 106-398) including Title X, subtitle G,
                                                                 “Government Information Security Reform.” It
                                                                 amends the Paperwork Reduction Act of 1995 by
                                                                 enacting a new subchapter on “Information Security.”
                                                                 The Act requires annual Inspector General
                                                                 evaluations of agencies’ security programs and
                                                                 practices. Agencies are required to submit copies of
                                                                 the Inspector General evaluations with their annual
                                                                 budget submissions to the Office of Management and
                                                                 Budget.
Extensions of the Statute    Include information regarding       Audit fieldwork in process.
of Limitations for           extensions of the statute of
Assessment of Tax            limitations for assessment of
                             tax under I.R.C. § 6501 and the
I.R.C. § 7803(d)(1)(C)       provision of notice to taxpayers
I.R.C. § 6501                regarding the right to refuse or
                             limit the extension to particular
                             issues or a particular period of
                             time.




                         Treasury Inspector General for Tax Administration
                                          March 31, 2001
                                                          79
                              Semiannual Report to the Congress


                                                                                                  Appendix VII

                 Government Performance and Results Act Audits

The Government Performance and Results Act of 1993 is intended to increase agency
accountability and improve the quality and delivery of government services. The GPRA holds
federal agencies accountable for program results by emphasizing goal setting, customer
satisfaction, and results measurement. Federal agencies are required to prepare multi-year
strategic plans, annual performance plans, and annual program performance reports (APPR). In
FY 1999, federal agencies were required to submit to the President and the Congress annual
performance plans that set annual goals with measurable target levels of performance. Beginning
with FY 2000, federal agencies were required to report on their successes in achieving the goals
established in the prior year’s performance plan in an annual program performance report.

The following reviews were performed as part of TIGTA’s strategy to assess the IRS’ compliance
with GPRA.

 Reference
  Number           Report Title and Recommendation Summary                         Management Response

2001-10-009   The Internal Revenue Service Needs to Ensure That Its              IRS management generally
              Future Annual Program Performance Reports Include All              agreed with our
              Requested Information                                              recommendations but stated the
                                                                                 measures that were baselined,
              Objective: Assess the adequacy and completeness of the FY          had no targets, or were classified
              1999 Annual Program Performance Report as it relates to the        as “to be determined,” did not
              Government Performance and Results Act of 1993.                    need an explanation.

              Recommendations: IRS management should ensure that the             This report is highlighted on
              APPRs more fully expand on the information requested by the        page 24
              Office of Management and Budget, the Department of the
              Treasury, and the Congress. Special attention should be given
              to including quantitative performance measures for all
              management challenges and high-risk areas, providing
              complete summaries of all findings and recommendations of
              program evaluations completed during the fiscal year, and
              providing more complete assessments of actual performance
              and its impact on expected future performance.
2001-10-012   Federal Tax Information Used by Customer Satisfaction              IRS management agreed with the
              Survey Contractors Needs to Be Better Protected                    recommendations.
              Objective: Evaluate the integrity, confidentiality, and security   This report is highlighted on
              of the taxpayer data in possession of the vendor and its           page 24.
              subcontractors who conduct the surveys used to judge
              customer satisfaction.
              Recommendations: IRS management should coordinate with
              the Office of Safeguards to develop a process to ensure that
              on-site security reviews of the vendor’s and its subcontractors’
              facilities are conducted. In addition, IRS management should
              evaluate the Office of Safeguards staffing and workload to
              ensure that proper oversight is given to private industry
              vendors.




                   Treasury Inspector General for Tax Administration
                                    March 31, 2001
                                                       81
                      Semiannual Report to the Congress


                                                                           Appendix VIII

                                        Acronyms

ACTC     Additional Child Tax Credit                IFASP	    International Field Assistance
ALERTS   IRS Automated Labor and                              Specialization Program
         Employee Relations Tracking                IG        Inspector General
         System                                     I.R.C.    Internal Revenue Code
ALS      Automated Lien System                      IRS       Internal Revenue Service
AML      Anti-Money Laundering                      LMSB	     IRS Large and Mid-Size Business
APPR     Annual Program Performance                           Division
         Report                                     ONDCP	    Office of National Drug Control
ATLAS    Audit Trail Lead Analysis System                     Policy
CCP      Customer Communications                    ORF       Office of Refund Fraud
         Project                                    PA        Privacy Act
CFf      Collection Field Function                  PIN       Personal Identification Number
CI       IRS Criminal Investigation                 PMO       Program Management Office
CIO      IRS Chief Information Officer              PSMS	     Practitioner Security Messaging
CMD      Complaint Management Division                        System
COO      IRS Chief Operations Officer               RICS	     Returns Inventory Classification
CPA      Certified Public Accountant
                         System
CSED     Collection Statute Expiration Date
        RIS       Request for Information Services
CSR      Customer Service Representative
           RPS       Revenue Protection Strategy
CTC      Child Tax Credit
                          RRA 98	   IRS Restructuring and Reform Act
CTR      Currency Transaction Report
                         of 1998
E-DIMS   Electronic Disclosure Information
         SB/SE	    IRS Small Business/
         Management System                                    Self-Employed Division
EFDS     Electronic Fraud Detection                 SED       Strategic Enforcement Division
         System                                     SSA       Social Security Administration
EIC      Earned Income Credit                       S-SSN	    Secondary Social Security
EIN      Employer Identification Number
                      Number
ELC      Enterprise Life Cycle
                     TE/GE	    IRS Tax Exempt and Government
ETA      Electronic Tax Administration
                       Entities Division
ETLA     Electronic Tax Law Assistance              TFRP      Trust Fund Recovery Program
FinCEN   Treasury Department's Financial            TIGTA	    Treasury Inspector General for
         Crimes Enforcement Network                           Tax Administration
FOIA     Freedom of Information Act of              UNAX	     Unauthorized Access to Taxpayer
         1988                                                 Accounts
FSL      Forensic Science Laboratory                U.S.      United States
FTI      Federal Tax Information                    U.S.C.    United States Code
FY       Fiscal Year                                W&I	      IRS Wage and Investment Income
GAO      General Accounting Office                            Division
GPRA	    Government Performance and
         Results Act of 1993




            Treasury Inspector General for Tax Administration
                             March 31, 2001
                                               83
                                                          Semiannual Report to the Congress


                                                                                                                                             Appendix IX

                                                                     Organization Chart


                                                                       Inspector General
                                                                            for Tax
                                                                         Administration


                                                         Chief Counsel to the
                                                          Inspector General




                    Deputy Inspector                                               Deputy Inspector            Assistant Inspector     Assistant Inspector
                      General for                                                     General for                  General for             General for
                         Audit                                                      Investigations           Information Technology   Management Services



  Associate IG for Audit        Associate IG for Audit              Associate IG for              Associate IG for
Headquarters Operations &         Small Business &                   Investigations                Investigations
  Exempt Organizations           Corporate Programs             (Investigative Support)           (Field Divisions)
       Programs

  Associate IG for Audit        Associate IG for Audit
   Information Systems           Wage & Investment                                             Deputy Associate IG for
        Programs                  Income Programs                                                  Investigations
                                                                                                  (Field Divisions)




                                              Treasury Inspector General for Tax Administration
                                                               March 31, 2001
                                                                                 85

